<html>
<title> - ALBRIGHT, EPIFANI, CASWELL, AND WAHLQUIST NOMINATIONS</title>
<body><pre>[Senate Hearing 110-157]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-157
 
         ALBRIGHT, EPIFANI, CASWELL, AND WAHLQUIST NOMINATIONS 
=======================================================================
                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

THE NOMINATIONS OF CLARENCE H. ALBRIGHT, OF SOUTH CAROLINA, TO BE UNDER 
  SECRETARY OF ENERGY; LISA E. EPIFANI, OF TEXAS, TO BE AN ASSISTANT 
 SECRETARY OF ENERGY FOR CONGRESSIONAL AND INTERGOVERNMENTAL AFFAIRS; 
 AND, JAMES L. CASWELL, OF IDAHO, TO BE DIRECTOR OF THE BUREAU OF LAND 
    MANAGEMENT. ADDING TO THIS AGENDA IS THE NOMINATION OF BRENT T. 
  WAHLQUIST, OF PENNSYLVANIA, TO BE DIRECTOR OF THE OFFICE OF SURFACE 
                   MINING RECLAMATION AND ENFORCEMENT

                               __________

                             JULY 12, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources

                     U.S. GOVERNMENT PRINTING OFFICE

38-108 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
      


















                   COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel


















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Albright, Clarence H. Jr., Nominee to be Under Secretary of 
  Energy.........................................................     7
Barrasso, Hon. John, U.S. Senator from Wyoming...................    13
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Caswell, James L., Nominee to be Director, Bureau of Land 
  Management, Department of the Interior.........................    10
Craig, Hon. Larry E., U.S. Senator from Idaho....................     3
Crapo, Hon. Mike, U.S. Senator from Idaho........................     2
DeMint, Hon. Jim, U.S. Senator from South Carolina...............     3
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Epifani, Lisa E., Nominee to be Assistant Secretary, 
  Congressional and Intergovernmental Affairs....................     8
Salazar, Hon. Ken, U.S. Senator from Colorado....................    20
Tester, Hon. Jon, U.S. Senator from Montana......................    29
Wahlquist, Brent T., Nominee to be Director, Office of Surface 
  Mining Reclamation and Enforcement, Department of the Interior.    14
Wyden, Hon. Ron, U.S. Senator from Oregon........................    25

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    33

                              Appendix II

Additional material submitted for the record.....................    61


              EPIFANI, CASWELL, AND WAHLQUIST NOMINATIONS

                              ----------                              


                        THURSDAY, JULY 12, 2007

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. If everybody will find a chair, the committee 
meets this morning to consider four pending nominations: 
Clarence ``Bud'' Albright, Jr., to be the Under Secretary of 
Energy; Lisa Epifani to be an Assistant Secretary of Energy for 
Congressional and Intergovernmental Affairs; James Caswell to 
be the Director of the Bureau of Land Management in the 
Department of the Interior; and Brent Wahlquist to be the 
Director of the Office of Surface Mining Reclamation and 
Enforcement in the Department of Interior.
    We're very glad to welcome all four nominees to the 
Committee. Lisa Epifani was a valued member of Senator 
Domenici's staff on this committee for several years. We're 
especially pleased to see her here. Many of us became 
acquainted with Bud Albright in his capacity as the Staff 
Director of the House Energy and Commerce Committee during the 
energy conference 2 years ago and we're glad to see him here. 
Indeed, all four of the nominees appear well qualified for the 
positions to which they've been nominated based on their 
previous work experience. We appreciate the willingness of all 
four of these nominees to serve in these important positions 
and welcome the opportunity to consider their nominations.
    Let me defer to Senator Domenici for any statement or 
comment he has.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Mr. Chairman, I believe I'll wait for 
comments on each one if you don't mind, and let us proceed in 
the manner that you listed them. I'm pleased to be here. They 
seem to be very qualified people that the President sent up. 
Some relatives are here. We're glad to see them, particularly 
glad to see Lisa's father and stepmother here. Thank you very 
much for coming.
    I have nothing further at this point. Thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    I know that Senator Crapo is here to do an introduction of 
one of the nominees. I know there may be other Senators also 
arriving to participate in introductions. Why don't we first 
recognize Senator Crapo for his statement.

          STATEMENT OF HON. MIKE CRAPO, U.S. SENATOR 
                           FROM IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman and 
ranking member Domenici. I appreciate the opportunity to be 
here today to introduce Jim Caswell as the nominee for the 
Director of the Bureau of Land Management. I've known Jim both 
personally and professionally for over a decade now, since the 
days when I served in the House of Representatives. Over that 
time I found him to be intelligent, dedicated, and of the 
highest moral character.
    Jim has been a respected authority on natural resource 
management issues in Idaho for over 2 decades. Over the years 
he has served as Deputy Forest Supervisor on the Boise National 
Forest, Forest Supervisor of the Tardee National Forest, and 
Supervisor of the Clearwater National Forest. Most recently, 
I've had the opportunity to work very closely with Jim in his 
role as the Administrator for the Office of Species 
Conservation in Idaho.
    I've been especially impressed by his strong and successful 
programs in the State for ecosystem management that take into 
account the diverse needs of those who live, work, and play on 
our public lands. His efforts for wolf, salmon, and grizzly 
recovery have been widely successful, and I fully expect his 
innovative style to work well on a national level as well.
    He's initiated candidate conservation agreements between 
landowners, the State, and the Federal agencies to facilitate 
the recovery of declining species, such as slickspot 
peppergrass, and has gone above and beyond to encourage private 
property owners to work with Federal agencies in this regard. 
Doing so has restored and forged great relationships that have 
not previously been attainable. In fact, his approach to 
cooperative conservation was one of the models I used in 
developing the Endangered Species Reform Act--Recovery Act, 
that I introduced earlier in this Congress and that I think can 
benefit the entire Nation.
    He's been an outstanding advocate for issues important to 
Idaho. I have no doubt that he will continue to successfully 
serve the Department of Interior and the BLM with the passion, 
commitment, and dedication he has shown in the past. I can't 
think of anybody who would be a more effective Administrator 
for the Bureau. As someone who's dedicated his life to public 
service as a soldier in Vietnam and as a diligent employee of 
three Federal agencies, I'm certain Jim will work tirelessly 
following confirmation to implement our Nation's public land 
policies to the benefit of all.
    In summary, Mr. Chairman, I wholly support Jim Caswell's 
nomination to be the Director of the Bureau of Land Management. 
He's a committed individual who will do his very best to serve 
the United States and further our commitment to our public 
lands. I urge you and this committee to forward his nomination 
favorably to the full Senate for confirmation.
    Thank you.
    The Chairman. Thank you very much for your statement. We 
appreciate it very much.
    I see Senator DeMint is here. I understand he would like to 
make a statement of introduction for Mr. Albright. You're 
welcome to do that.

 STATEMENT OF HON. JIM DeMINT, U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint: Thank you, Mr. Chairman and fellow 
colleagues. I appreciate you holding the hearing today. I'm 
encouraged by the President's appointment of Mr. Charles 
``Bud'' Albright to be Under Secretary of Energy. More 
importantly, I'm proud to see the President nominate one of 
South Carolina's native sons.
    Bud Albright grew up running around the streets of Rock 
Hill, South Carolina, and received his bachelor's degree from 
Presbyterian College in Clinton, South Carolina. Soon after he 
came to Washington and started his career with our good friend 
the late Strom Thurmond. At the same time, Bud was working his 
way through George Mason Law School. Since then he has been no 
stranger to government. He has seen how government works well 
and how it doesn't. He has served as counsel on numerous 
committees in Congress, performing investigations, oversight, 
as well as working in the Justice Department and the Department 
of Housing and Urban Development.
    More importantly, he will also bring private sector 
experience to this new position. He has been a private 
attorney, counsel to a trade association, and a vice president 
of an energy company. Our Nation faces tough challenges to stay 
competitive and supply our energy needs. Bud's distinguished 
career has provided a wealth of knowledge and diversity of 
experience that I believe will serve the Department of Energy 
and our Nation well.
    I also want to welcome his family and give a special thank 
you to his lovely wife Ginger. ``Ginger'' is my daughter's 
name, by the way, too, so I appreciate her being here. 
Government service is not easy and it is the support of our 
spouses that really helps us to be successful.
    I hope my colleagues will quickly nominate or confirm the 
nomination here of Bud Albright. He'll be a great addition to 
the Energy Department. Thank you.
    The Chairman. Thank you very much.
    I know Senator Craig also wished to make introduction of 
Mr. Caswell. So why don't you go right ahead with any statement 
you'd like to make.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. I will be brief. Let's get our nominees 
before us, and let me join with my colleague Senator Crapo in 
speaking on behalf of Jim Caswell, Mr. Chairman. I didn't hear 
all of my colleague's statement, but I find it interesting that 
High Country News, not necessarily known to be a pro-extractive 
industry mouthpiece, has said that ``Mr. Caswell has no obvious 
connections with the extractive industry and is scandal-free.'' 
So that's rather high praise for somebody who's been involved 
in all of the activities that he has throughout his 
professional career, both at the State level, working for 
Governor Kempthorne at the time, and certainly in his role as a 
Forest Service employee, a Forest Service supervisor.
    That's really where I got to know Jim, when we worked 
together on the Clearwater in Idaho in a variety of very 
difficult situations and times. A very calm, thoughtful, 
methodical person who worked his way through problems with 
certainly quality skills and great experience.
    So I was one who was very excited when the Secretary, the 
White House, asked Jim Caswell to become the new Director of 
the BLM. He brings all that Mike Crapo has said with him to 
that office. He will serve us with credibility and honor.
    Mr. Chairman, let's get him heard and confirmed. The skies 
of Idaho and the West are very smoky at this moment and the 
territory and property that he will have dominion over is 
burning. Therefore, let's get him out on the ground, get a wet 
sack in his hand, and get him to fighting fire. We're glad he's 
here.
    The Chairman. All right. Well, thank you very much for your 
statement.
    At this point, why don't we call the four nominees to the 
witness stand. We will then swear them in and I have some 
standard questions that I'm required to ask of each nominee. 
While you're standing, let me just ask you to raise your right 
hand.
    Do you solemnly swear the testimony you're about to give to 
the Senate Committee on Energy and Natural Resources shall be 
the truth, the whole truth, and nothing but the truth?
    Mr. Albright. I do.
    Ms. Epifani. I do.
    Mr. Caswell. I do.
    Mr. Wahlquist. I do.
    The Chairman. Please be seated.
    Senator Domenici. Mr. Chairman, before you do that, could I 
have a brief opening remark?
    The Chairman. Certainly, any opening statement you'd like. 
Go right ahead.
    Senator Domenici. Thank you, Mr. Chairman.
    Good morning. I want to welcome all the nominees and their 
families to the committee today. I also thank Senator Bingaman 
for scheduling this hearing this morning to consider the 
President's nominees for these important decisions.
    Before we go any further, I want to especially welcome and 
introduce to those who are now on the committee Lisa Epifani, 
the nominee for Assistant Secretary for Congressional and 
Intergovernmental Affairs at the Department of Energy. Prior to 
her current position on the President's National Economic 
Council, Lisa was counsel here on our committee for 3 years. 
She was the lead staff on all the electricity and oil and gas 
issues during our work on the Energy Policy Act of 2005. Her 
prior experience at DOE as Senior Legislative Adviser made her 
an invaluable asset to the committee as we crafted the 
legislation.
    She's extremely intelligent and tireless in her 
professional activities, which result in her successes in 
almost everything she undertakes. She will be an outstanding 
addition to Secretary Bodman's management team and to Lee 
Rawls--I note his presence, Mr. Chairman. He comes to all these 
hearings, a rather exceptional situation for an Under 
Secretary. We welcome you.
    The Chairman. Clay.
    Senator Domenici. Clay. What did I say?
    The Chairman. Lee Rawls.
    Senator Domenici. I said ``Lee Rawls.'' He took the place 
of Lee Rawls. Clay Sells.
    The other nominees we're considering today will, if they're 
confirmed, all hold positions requiring decisions on matters of 
great national importance, but also decisions that will be 
crucial to each of our home States, and certainly to yours and 
mine, Senator Bingaman. I hope we have a few questions 
regarding the latter in this hearing.
    For now, I thank all of the nominees for their willingness 
to devote a part of their careers to public service. I look 
forward to their testimony and thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Before we call on each of the nominees to make their 
statement, the rules of the committee that apply to all 
nominees require they be sworn. We've gone through that. I 
would ask also, I'm required to ask, three questions of each 
nominee that appears before this committee. I'll ask that 
question and then ask each of you in turn to respond.
    The first question is: Will you be available to appear 
before this committee and other congressional committees to 
represent departmental positions and to respond to issues of 
concern to the Congress? Mr. Albright?
    Mr. Albright. I will.
    The Chairman. Ms. Epifani?
    Ms. Epifani. I will.
    Mr. Caswell. I will.
    Mr. Wahlquist. I will.
    The Chairman. The second question is: Are you aware of any 
personal holdings, investments, or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the President? Mr. 
Albright?
    Mr. Albright. Senator, my investments, personal holdings, 
and other interests have been reviewed both by me and the 
appropriate ethics counsels within the Federal Government. I 
have taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest or appearances 
thereof to my knowledge.
    The Chairman. Thank you.
    Ms. Epifani.
    Ms. Epifani. My investments, personal holdings, and other 
interests have been reviewed by both myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
the appropriate action to avoid any conflicts of interest. 
There are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Mr. Caswell.
    Mr. Caswell. Mr. Chairman, my investments, personal 
holdings, and other interests have been reviewed by both myself 
and the appropriate ethics counselors within the Federal 
Government and I have taken the appropriate action to avoid any 
conflicts of interest and there are no conflicts of interest or 
appearances thereof to my knowledge.
    The Chairman. Mr. Wahlquist.
    Mr. Wahlquist. Mr. Chairman, my investments, personal 
holdings, and other interests have been reviewed by both myself 
and the appropriate ethics counselors within the Federal 
Government. I have taken appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest or 
appearances thereof to my knowledge.
    The Chairman. Thank you all.
    Let me ask the third question that we're required to ask. 
Are you involved or do you have any assets that are held in a 
blind trust? Mr. Albright?
    Mr. Albright. No, I do not.
    The Chairman. Ms. Epifani?
    Ms. Epifani. No.
    The Chairman. Mr. Caswell?
    Mr. Caswell. No, sir, I do not.
    The Chairman. Mr. Wahlquist?
    Mr. Wahlquist. No.
    The Chairman. All right. Our practice here in the committee 
is to at this point invite nominees to introduce any family 
members that they have here with them. Mr. Albright, do you 
have anyone you would like to introduce at this point?
    Mr. Albright. I have, as we say back in South Carolina, a 
slew of family here.
    The Chairman. All right.
    Mr. Albright. I would just like to introduce my wife 
Ginger, my son Trip, daughter Carolina, my brother Ned, my two 
sisters-in-law Cathy and Beth. If I may mention one other 
person, I have a good friend who has twice been confirmed by 
the Senate, Ronny Rosenfeld, who is currently the chairman of 
the Federal Housing Finance Board. He's here with his wife 
Patty, back there somewhere.
    The Chairman. All right. Well, we welcome all of you to 
this hearing.
    Ms. Epifani, did you have family members you'd like to 
introduce?
    Ms. Epifani. I'd like to introduce my father, Achille 
Epifani, his wife Rhonda, my sister Antonietta Epifani, and my 
niece Alazondrea.
    The Chairman. Well, we welcome them very much. Thank you 
for being here.
    Mr. Caswell, did you have any family you wanted to 
introduce?
    Mr. Caswell. Yes, Mr. Chairman. I have my wife with me 
today, Susan. We've been married for 42 years, in fact 42 years 
a month ago today.
    The Chairman. All right.
    Mr. Caswell. Then on line I have some of my other--some of 
my children are watching on line, so that's exciting for them.
    The Chairman. All right. Well, we don't want to start 
introducing everyone who's on line.
    [Laughter.]
    The Chairman. We'll be here a long time.
    Mr. Wahlquist, go ahead.
    Mr. Wahlquist. I have with me my wife Diana. We've been 
married for 41 years. We also have six children and ten 
grandchildren and they're not here.
    The Chairman. All right. Well, thank you all for being 
here, and all of your guests are of course welcome.
    Let me at this point recognize the nominees to make 
whatever statements they would like to make before we go to 
questions. Mr. Albright, why don't you go first.

  TESTIMONY OF CLARENCE H. ALBRIGHT, Jr., NOMINEE TO BE UNDER 
                      SECRETARY OF ENERGY

    Mr. Albright. Thank you, Senator, members of the committee. 
I'm very much pleased to be here today. I appreciate the 
opportunity to testify. I won't go through reading my 
statement. I'd ask that it be made part of the record.
    The Chairman. We will include everyone's full statement in 
the record, and we will appreciate it if you could summarize.
    Mr. Albright. Yes, sir, thank you. I just want to make two 
or three points. I want to comment on what a privilege it was 
to work with you, Senator Bingaman and Senator Domenici, on 
EPACT 2005. We fought hard on matters and fought fair, and we 
won some things, we lost some things. But I think working 
together produced a good piece of legislation that's helped us. 
It was really a privilege to work with you and to work with 
Congressman Dingell and my current boss, Joe Barton, in that 
effort. I think it was a good bipartisan effort that speaks 
well of what the institution can do.
    Turning to the Under Secretary position, I'm honored to be 
nominated and I hope you will confirm me. I think I can 
summarize my view of the job as having three important 
responsibilities. One is a responsibility to the past, to help 
remediate and clean up the environmental legacy of the Nation's 
nuclear weapons program. Two, a responsibility to the present, 
to pursue development of solutions to our current energy 
challenges, keeping in mind the realities of our current 
technology and of our economy. Three, a responsibility to the 
future, to ensure that we spur innovation in research and 
development of energy technology so that we and our children 
can enjoy an economically strong America with its energy 
sources secure, efficient, and clean.
    I'm happy to answer any questions that you may have.
    [The prepared statement of Mr. Albright follows:]

 Prepared Statement of Clarence H. Albright, Jr., Nominee to be Under 
                          Secretary of Energy
    Mr. Chairman, Senator Domenici, and Members of the Committee, I am 
honored to appear before you today as the President's nominee to be 
Under Secretary of Energy. I appreciate the confidence of President 
Bush, Secretary Bodman, and Deputy Secretary Sell in me and in my 
ability to assist in achieving our Nation's energy goals.
    I was born and reared in Rock Hill, South Carolina, studied history 
and political science at Presbyterian College and later received a law 
degree from George Mason University School of Law.
    I have devoted nearly twenty years of my career to public service; 
in fact, except for brief periods in the private sector, I have devoted 
my entire career to public service. I have worked in both the 
legislative and the executive branches of the Federal Government, and 
through these experiences, I have gained a broad understanding and deep 
respect for the law, our government, and the important work of 
developing and implementing energy policy.
    I have been privileged to serve in two pervious Presidential 
Administrations. In the Reagan Administration at the Department of 
Justice, I worked both as an Assistant United States Attorney in the 
Eastern District of Virginia, known affectionately as the ``Rocket 
Docket,'' and later at main Justice as Deputy Associate Attorney 
General. At that time the Associate Attorney General's office was 
responsible for criminal matters, with the U.S. Attorneys, FBI, DEA and 
other DOJ criminal enforcement organizations reporting through that 
office.
    I continued my work in the executive branch under President George 
H.W. Bush at the Department of Housing and Urban Development. There, as 
Principal Deputy General Counsel for Secretary Jack Kemp, I had a broad 
range of legal and administrative responsibilities, and supervised 
several hundred capable attorneys in the General Counsel's operation.
    This service in both the Reagan and Bush Administrations yielded 
insight into the operation and management of large executive branch 
organizations not unlike that of the Department of Energy.
    In the legislative branch, I have served as General Counsel to the 
House of Representatives District of Columbia Committee and Chief 
Oversight Counsel to the House Committee on Energy and Commerce. I 
earned valuable experience in the private sector as Vice President and 
Legislative Counsel of the Mortgage Bankers Association of America and 
as Vice President of Federal Relations at Reliant Energy.
    Currently, I serve as Republican Staff Director for the House 
Committee on Energy and Commerce, where I work for Ranking Member Joe 
Barton of Texas. I want to take this opportunity to say how much I 
admire Congressman Barton for his service to the American people in the 
U.S. Congress and how much I appreciate him inviting me to help craft 
energy legislation for the Committee and the U.S. House of 
Representatives.
    I'm particularly proud of the bipartisan success that I was 
involved in as the Senate and the House worked together to craft the 
Energy Policy Act of 2005. The give-and-take during those long hours 
helped develop a solid piece of legislation. Those long hours, too, 
allowed me to see the best and brightest people hard and honestly at 
work, debating policy priorities and legislating in a manner that I 
think would make the Founding Fathers proud. Senators Bingaman and 
Domenici, and Congressmen Dingell and Barton worked hard and well to 
advance good energy policy. I count myself lucky to have had a small 
role in helping that process succeed.
    I believe the Under Secretary of Energy has three important 
responsibilities to the Nation. First, the Under Secretary has a 
responsibility to the past, to help remediate and cleanup the 
environmental legacy of the Nation's nuclear weapons program. The Under 
Secretary's responsibility to the present requires the pursuit and 
development of solutions to our current energy challenges, recognizing 
the importance of fossil fuels as the primary current source of the 
Nation's energy supply. Finally, the Under Secretary's responsibility 
to the future requires innovative research and development of energy 
efficient technologies and renewable sources of energy that will lead 
the United States toward energy independence.
    If confirmed, I look forward to working with the Committee and the 
Congress as a whole to fulfill these responsibilities.
    In closing, I again want to thank the President, Secretary Bodman, 
and Deputy Secretary Sell for the confidence they have placed in me and 
thank the Committee for considering my nomination. I hope the Senate 
will confirm me so that I can role up my sleeves soon and get about the 
job of addressing America's energy issues.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions the Committee may have.

    The Chairman. Thank you very much.
    Lisa, go right ahead with your statement.

TESTIMONY OF LISA E. EPIFANI, NOMINEE TO BE ASSISTANT SECRETARY 
  CONGRESSIONAL AND INTERGOVERNMENTAL AFFAIRS, DEPARTMENT OF 
                             ENERGY

    Ms. Epifani. Mr. Chairman, Senator Domenici, members of the 
committee: I'm very honored to appear before you as the 
President's nominee to serve as Assistant Secretary of 
Congressional Affairs and Intergovernmental at the Department 
of Energy. I'm grateful to the President for his confidence in 
me and I appreciate the committee holding this hearing and 
considering my nomination. I thank Secretary Bodman and Deputy 
Secretary Clay Sell for their support.
    I've introduced my family and I thank each of them for 
their love and support. I owe the deepest appreciation and most 
respect to my father. He taught me always to work hard, do my 
best, and to be a good person. Growing up with him, I worked at 
his restaurant and saw how much people loved him. He's an 
excellent chef, but his greatest gift is his personality. He 
has a great attitude about life and he shows his family and 
friends every day how much he loves them. I'm very lucky to 
have a father like him. Any success that I may achieve in this 
life will be because he made it possible, and I thank him very 
much.
    If confirmed, it would be my privilege to work with this 
committee and the Congress, as well as with my colleagues in 
the Administration, in pursuit of policies that will best serve 
our country. Serving on this committee from 2003 to 2005 was an 
excellent lesson in the value of bipartisan cooperation. I'm 
very proud to have been part of the team that worked on the 
Energy Policy Act of 2005. I believe enactment of that 
legislation is a true testament to the leadership of Senators 
Domenici and Bingaman and Congressmen Barton and Dingell.
    Senator Domenici knows that he has a very special place in 
my heart and that I thank him very much for taking care of me 
while I was here on the committee. I really enjoyed working on 
the committee staff and I'm looking forward to working closely 
again with this committee and the staff which I so admire.
    I also want to acknowledge Alex Flint, who was the Staff 
Director when I was here on committee. Alex sets the example in 
my mind for excellence and professionalism and I try to follow 
that example.
    In closing, I want to again thank President Bush and 
Secretary Bodman for the trust they've placed in me. I also 
thank the committee for holding this hearing and considering my 
nomination. It would be an honor and privilege for me to serve 
the American people in this position.
    Mr. Chairman, that concludes my personal statement. I'd be 
glad to answer any questions. Thank you.
    [The prepared statement of Ms. Epifani follows:]

    Prepared Statement of Lisa E. Epifani, Nominee to be Assistant 
 Secretary, Congressional and Intergovernmental Affairs, Department of 
                                 Energy
    Mr. Chairman, Senator Domenici, and Members of the Committee, I am 
honored to appear before you today as the President's nominee to serve 
as the Assistant Secretary for Congressional and Intergovernmental 
Affairs at the Department of Energy.
    I am grateful to President Bush for his confidence in me and I 
appreciate the Committee holding this hearing and considering my 
nomination. I thank Secretary Bodman and Deputy Secretary Sell for 
their support.
    I would like to introduce my family. My father, Achille Epifani, my 
stepmother, Rhonda Epifani, my sister, Antonietta Epifani, and my 
niece, Alazondrea Epifani. I thank them each for their love and 
support, and I owe the deepest appreciation and the most respect to my 
father. He taught me to work hard, to always do my best and to be a 
good person. Growing up, I worked with him at his restaurant and saw 
how much people love him. He is an excellent chef, but his real gift is 
his personality. He has a great attitude about life and shows his love 
to his family and friends everyday. I am very lucky to have a father 
like him. Any success that I may achieve in this life will be because 
he has made it possible.
    If confirmed, it would be my privilege to work with this Committee 
and the Congress, as well as with my colleagues in the Administration, 
in pursuit of policies that will best serve our Nation.
    Serving as Committee Counsel from 2003 through 2005 was an 
excellent lesson on the importance of working in a bipartisan manner. I 
am very proud to have been part of the team that worked on the Energy 
Policy Act of 2005. Enactment of that legislation was a testament to 
the leadership of Senators Domenici and Bingaman, and Congressmen 
Dingell and Barton. Senator Domenici knows that he has a very special 
place in my heart, and I thank him for taking good care of me when I 
was on staff. I really enjoyed working on the Committee staff, and I am 
looking forward to again working closely with this Committee and its 
staff, which I so admire. I also want to acknowledge Alex Flint, who 
was the Staff Director when I served on the Committee staff. In my 
mind, Alex has set an example of excellence and professionalism that I 
will do my best to follow.
    In closing, I want to again thank President Bush and Secretary 
Bodman for the trust they have placed in me. I also want to thank the 
Committee for holding this hearing and considering my nomination. It 
would be an honor and privilege for me to serve the American people in 
this position.
    Mr. Chairman, this concludes my prepared statement. I would be glad 
to answer any questions you may have.

    The Chairman. Thank you very much for your statement.
    Mr. Caswell, why don't you go right ahead.

TESTIMONY OF JAMES L. CASWELL, NOMINEE TO BE DIRECTOR BUREAU OF 
          LAND MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Caswell. Thank you, Chairman Bingaman, Senator 
Domenici, and the other members of this committee. I'm both 
humbled and honored to appear before you today as President 
Bush's nominee for the Director of the Bureau of Land 
Management. I'm also grateful for the support and encouragement 
of Secretary Kempthorne and Secretary Allred. I appreciate this 
opportunity to present my views and qualifications for this 
office and ask your consent of the President's nomination.
    First and foremost, Mr. Chairman, I'm a family man. You met 
my wife a few minutes ago. We have three grown children, 
Rebecca, Cari, and Kurt, and four grandchildren. Our eldest 
grandson, Tyler, was recently overheard by his mother telling 
several of his friends: ``If confirmed, my grandpa will be the 
director of the BLT.'' I could not be more pleased or honored 
by my family.
    Susan and I were raised in a small rural community in west 
central Michigan and our families were small business owners in 
the agriculture community. It was in this environment that I 
learned the importance of service to others, the value of hard 
work and taking responsibility for one's actions. My interest 
in the outdoors was nurtured by my father and extended family. 
By the time I reached my teens, it was clear to me that my 
life's work would be to care for our Nation's public lands.
    Upon graduation from high school, I attended Michigan State 
University and earned a bachelor's degree in science in 
forestry. Upon graduation I was commissioned as a second 
lieutenant in the United States Army and I served 3 years on 
active duty, including a tour in Vietnam.
    During my 40 years as a resource manager, which began with 
the BLM and ended with the Forest Service, I have had an 
enviable opportunity to live and work in both large and small 
communities across the West. With the Forest Service I had the 
opportunity to problem-solve, influence accountability, monitor 
and evaluate issues, programs, and people. I have aggressively 
implemented ecosystem management principles at the watershed 
scale in all projects and programs. All projects were planned 
at a landscape scale in collaboration with local interests, 
State agencies, tribal interests, and other Federal agencies. 
This is a major change from traditional project-level planning 
processes and resulted in integrated decisions that were better 
for the resource and the communities.
    In 2000 I left the Forest Service to undertake a new 
challenge. For over 6 years I've served in the Idaho Governor's 
office as administrator for the Office of Species Conservation. 
The office was created by the Idaho State legislature in 1999 
to bring a policy focus to endangered species issues and to 
foster collaboration and coordination among the relevant State 
and Federal agencies. Then-Governor Kempthorne told me that he 
specifically recruited me to serve as an administrator because 
of my reputation as a leader. It was with the support of the 
Governor, his office, and the hardworking folks in OSC that the 
office has gained a great deal of credibility as both a can-do 
and a go-to organization.
    We worked on both the wolf management plan in the State and 
the Yellowstone grizzly bear management plans. Both of those 
issues were politically and emotionally charged and generated a 
great amount of public scrutiny and debate. I'm proud that we 
successfully worked with both committees of the House and 
Senate in the State legislature to get those plans approved and 
make changes to four separate statutes over three different 
legislative sessions.
    These experiences have given me a set of bedrock principles 
that I hold very close and that I would like to highlight 
briefly. I passionately believe in multiple use management and 
conservation of our public resources, with a commitment to 
balance, cooperation, collaboration, and sharing. In my view, 
achievement of this commitment requires scientific information, 
listening to, learning about, and collaborating with the owners 
of our public lands, the American people.
    I believe the achievement of the multiple use mission is 
critically dependent upon enhanced community relations and 
being a good neighbor and a citizen of the community. I believe 
resource plans must be adaptive, dynamic, and rely on place-
based ecosystem principles and landscape assessments.
    Mr. Chairman, I believe in the dedicated men and women of 
the BLM. I guide my interactions, decisions, and interpersonal 
relationships based on the philosophy that people are our most 
important asset and their experience and judgment must be 
valued.
    Thank you, Mr. Chairman, members of the committee, for 
considering my qualifications and providing the opportunity to 
appear. If confirmed, I will do my absolute best to serve the 
public interest, manage the public's resources for the benefit 
of all the Nation's citizens. Thank you and I welcome your 
questions.
    [The prepared statement of Mr. Caswell follows:]

Prepared Statement of James L. Caswell, Nominee to be Director, Bureau 
             of Land Management, Department of the Interior
    Thank you Chairman Bingaman, Senator Domenici, and other 
distinguished members of this committee. I am both humbled and honored 
to appear before you today as President Bush's nominee for the Director 
of the Bureau of Land Management. I am also grateful for the support 
and encouragement of Secretary Dirk Kempthorne and Assistant Secretary 
Stephen Allred. I appreciate this opportunity to briefly present my 
views and qualifications for this office and ask your consent of the 
President's nomination.
    First and foremost, Mr. Chairman, I am a family man and would like 
to introduce my wife, Susan, who is here with me today. We have three 
grown children, Rebecca, Cari, and Kurt, and four grandchildren. Our 
eldest grandson, Tyler, was recently overheard by his mother telling 
several of his friends: ``If confirmed, my grandpa will be the Director 
of the BLT.'' I could not be more blessed or proud of my family.
    Susan and I were raised in small rural communities in west-central 
Michigan. Our families were small business owners serving the 
agricultural community. It was in this environment that I learned the 
importance of service to others, the value of hard work, and taking 
responsibility for one's actions. My interest in the outdoors was 
nurtured by my father and extended family. By the time I reached my 
teen years, it was clear to me that my life's work would be to care for 
our Nation's public lands.
    After graduation from Edmore High School in 1963, I attended 
Michigan State University and earned a Bachelor of Science degree in 
forestry. Upon graduation from college, I was commissioned as a Second 
Lieutenant in the United States Army. I served three years on active 
duty and three years in the ready reserves, including a tour in 
Vietnam.
    During my 40-year career as a Federal resource manager, which began 
with the BLM and concluded with the US Forest Service, I have had the 
enviable opportunity to work and live in communities large and small 
across the West.
    In the Forest Service, I had opportunity to problem solve, 
influence accountability, monitor and evaluate issues, programs and 
people. I aggressively implemented ecosystem management principles at 
the watershed scale in all projects and programs. All projects were 
planned on a landscape level incorporating ecosystem management 
principles in collaboration with local interests, state agencies, 
tribal interests, and other Federal agencies. This change from a 
traditional project-level planning process resulted in integrated 
decisions that were better for the resources and better for the 
communities. I am particularly proud of my work in development of best 
management practice audits and the assessment of the 1995/1996 flood 
and landslide damage on the Clearwater National Forest.
    In 2000, I left Federal service to undertake a new challenge. For 
over 6 years, I have served in the Idaho Governor's office as 
Administrator for the Office of Species Conservation. The Office was 
created by the Idaho State Legislature in the 1999 to bring a policy 
focus to endangered species issues and to foster collaboration and 
coordination among the relevant state and Federal agencies. As 
Administrator, I have been engaged in all aspects of creating a new 
organization including recruiting experienced and effective personnel, 
and building a constituency at the local, state, and regional level.
    Then-Governor Kempthorne told me that he specifically recruited me 
to serve as Administrator because of my reputation as a leader. It is 
with the support of the Governor's office and the hard work of a 
dedicated staff that the Office of Species Conservation has gained a 
great deal of credibility as a ``can do'' and ``go to'' organization. 
The Office of Species Conservation worked on a Wolf Management Plan and 
a Yellowstone Grizzly Bear Management Plan--both involving issues that 
were politically and emotionally charged and that generated a 
significant amount of public scrutiny and debate. I am proud that the 
Office of Species Conservation successfully worked with both Committees 
of the Idaho House and Senate and on the floor to achieve passage of 
both plans and four separate statutes revisions over three sessions of 
the state legislation.
    These experiences as a Federal land manager and as a state 
government official have enriched my life and have made me a more 
enlightened citizen and thoughtful resource management professional. 
Through these experiences, I have developed a set of bedrock principles 
that guide how I lead and manage, how I make decisions, and how I 
communicate with those I work with under my leadership, and especially, 
those who I serve. Mr. Chairman, I would like to highlight some of 
these principles that guide my actions:

  <bullet> I believe passionately in multiple-use management and 
        conservation of our precious public resources with a commitment 
        to balance, cooperation, collaboration, and sharing. In my 
        view, achievement of this commitment requires scientific 
        information, and listening to, learning about, and 
        collaborating with the owners of our public lands--the American 
        people. Mr. Chairman, if confirmed, I pledge to do my utmost to 
        achieve this multiple-use mandate and commitment.
  <bullet> I believe achievement of the BLM multiple-use mission is 
        critically dependent upon enhanced community relationships and 
        being a good neighbor and citizen of those communities. It is 
        essential we communicate with an ever expanding diverse 
        community of interests if we are to make sound decisions and 
        achieve shared goals. Striking a balance between the needs and 
        desires of local communities and national goals and objectives 
        hinges upon strong and effective community relationships. I 
        commit to work diligently with local communities to enhance and 
        improve long-term relationships and public confidence.
  <bullet> I believe Resource Management Plans must be adaptive, 
        dynamic, and rely upon ``place based'' ecosystem management 
        principles and landscape-scale assessments. This approach is 
        the most effective and efficient way to engage the public, 
        develop durable agreements, collaborate with others, while 
        meeting legal requirements.

    Mr. Chairman, I believe in the dedicated men and women of the BLM. 
I guide my interactions, decisions, and interpersonal relationships 
based on the philosophy that: People are our most important asset and 
their experience and judgment is a valuable resource. I pledge to 
foster a work environment that supports decentralized decision making 
and relies heavily upon individuals close to the ground, the issues, 
and the resources to make the right choices.
    Thank you Mr. Chairman and Members of the Committee for considering 
my qualifications and providing the opportunity to appear at this 
hearing. If confirmed, I will do my absolute best to serve the public 
interest and manage the publics' resources for the benefit of all the 
Nation's citizens.
    Thank you, I welcome your questions.

    The Chairman. Thank you.
    Mr. Wahlquist, before you give your statement let me just 
interrupt the proceedings for a moment to welcome our newest 
committee member, Senator Barrasso. We are very pleased to have 
him on this committee. I've already had the chance to welcome 
him personally, but I wanted to publicly acknowledge how glad 
we are to see him here. He carries on a fine tradition of 
representation of his State and takes over where Craig Thomas 
left off. We're glad to have you here and look forward to 
working with you.
    I know Senator Domenici wanted to make a comment as well.
    Senator Domenici. Thank you, Senator Bingaman.
    Senator Barrasso, I look forward to knowing you better. 
Looking at what you have accomplished in your life, it's 
obvious that you have what it takes to be an eminently 
successful United States Senator. I want you to know that as 
ranking member I'm very pleased that you chose this committee, 
and that was your choice as I understand it. We will have a lot 
of work to do during your time here and you'll find that we do 
our work very bipartisan, but when we have to have a partisan 
issue we are not loath to do that. We probably accomplish more 
than any other committee because we do a lot of things 
bipartisan. We hope you're prepared to join us in making that 
even a better process.
    Thank you very much, Mr. Chairman.
    The Chairman. Did you want to make any statement before we 
proceeded? Go ahead.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman. Thank you, 
Senator Domenici, for your kind welcome. I'm excited at this 
opportunity to serve on the Energy and Natural Resources 
Committee and to carry on a tradition which has long been there 
for Wyoming, actually for more than 100 years. Many don't know 
that Wyoming has been represented on this committee since 1899; 
one Senator from our State has been on this committee. My 
predecessors recognized long ago the major issues of this 
committee are very critical to the future of not just our 
State, but also the Nation.
    We are blessed in Wyoming with incredible energy and 
natural resources. We are the largest net exporter of energy in 
the country. We have the first national park, first national 
forest, first national monument. This is a major part of our 
economy, a major part of the traditions of our State, and I'm 
looking forward to working hard for our State and for our 
Nation.
    So thank you very much for the kind welcome.
    The Chairman. Thank you very much.
    Why don't we go right ahead then with your statement, Mr. 
Wahlquist, and then we'll have some questions for each of you.

TESTIMONY OF BRENT T. WAHLQUIST, NOMINEE TO BE DIRECTOR, OFFICE 
 OF SURFACE MINING RECLAMATION AND ENFORCEMENT, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Wahlquist. Thank you. Thank you, Mr. Chairman and 
Members of the committee. It's a great honor to appear before 
you today as the President's nominee as Director of the Office 
of Surface Mining Reclamation and Enforcement.
    I was raised on a family farm near Idaho Falls, Idaho. 
During my childhood I learned two important lessons relevant to 
the position for which I have been nominated. First, I learned 
an appreciation of the natural order of things: planting and 
harvesting, the cycle of life, and mankind's dependency upon 
natural systems. Along with that I developed an intense 
curiosity about those natural systems, which led to my eventual 
college degrees.
    Second, my childhood taught me the value of coal. For much 
of my childhood, a coal-burning kitchen range cooked our food, 
canned our harvest, baked our bread, and warmed the kitchen in 
the winter. In short, a full coal bin was an integral and 
essential part of daily life.
    While coal's importance today is not as readily apparent as 
it was when I was a child, it is no less important. More than 
half the Nation's electricity comes from the burning of coal 
and our daily lives are bathed in the glow of electricity.
    I've been involved in the environmental issues related to 
coal mining for the past 35 years. That experience has taken me 
to all types of coal mines and related facilities across all 26 
States where coal is being mined. My experience over the years 
has enabled me to look at the environmental and public safety 
issues related to coal mining from a wide range of 
perspectives.
    The Office of Surface Mining Reclamation and Enforcement 
exists to ensure that America gets the coal it needs as the 
essential source of energy in a manner that protects both the 
land and the people, while addressing problems from past 
mining. However, OSM cannot and does not do this alone. Of the 
almost 2400 Government employees directly involved on a daily 
basis in implementing the regulatory and restoration programs 
of the Act, less than 25 percent work for OSM. The rest are 
State and tribal employees who permit and regulate 97 percent 
of the Nation's coal production and utilize 90 percent of the 
AML project funds.
    With the passage of the 2006 amendments, which authorized 
tribal regulatory primacy and increased the flow of AML funds 
to States and tribes, those percentages are only going to go 
up. Therefore, the major task for OSM is to help the States and 
tribes succeed by providing them with the funding, regulatory 
and policy framework, oversight, assistance, training, and 
technical tools to maintain a stable regulatory and AML 
programs of high quality. If confirmed, I will certainly work 
towards that end as Director.
    Again, thank you for the opportunity to appear before you 
today and express my deep interest in OSM and its mission.
    [The prepared statement of Mr. Wahlquist follows:]

 Prepared Statement of Brent Wahlquist, Nominee to be Director, Office 
   of Surface Mining Reclamation and Enforcement, Department of the 
                                Interior
    Mr. Chairman and Members of the Committee, it is a great honor to 
be appear before you today as the President's nominee as Director of 
the Office of Surface Mining Reclamation and Enforcement.
    I would also like to introduce my wife Diana, who is here with me 
today. We have been married for over 41 years, and have six children 
and 10 grandchildren scattered from Vermont to Louisiana to Utah.
    I am the youngest of seven sons. My family lived in an isolated 
farming community in Utah's Uintah Basin until we moved to a smaller 
farm near Idaho Falls, Idaho when I was five. From that family farm 
upbringing, I learned two important lessons relevant to the position 
for which I have been nominated.
    First, I learned an appreciation of the natural order of things: 
planting and harvesting, the cycle of life, and mankind's dependency on 
natural systems. Along with that, I developed an intense curiosity 
about natural systems, which led to my eventual college degrees. In 
obtaining those degrees, I not only learned a great deal about 
biological systems, I also learned how to frame questions and seek 
objective answers to those questions.
    Second, my childhood taught me the value of coal. For much of my 
childhood a coal burning kitchen range cooked our food, canned our 
harvest, baked our bread, and warmed the kitchen in winter. We also 
used that kitchen stove to heat the water with which we washed our 
dishes, our clothes, and ourselves. After we got an electric range when 
I was in the fourth grade, the coal burning space heater in the living 
room remained our sole source of heat for the house during those cold 
Idaho winters. In short, a full coal bin, with its sledge hammer to 
breakup large chunks of coal to a size that would fit in the fire boxes 
of the stoves, was an integral and essential part of daily life until I 
graduated from high school and left home for college.
    Yet, while coal was absolutely essential to our daily life, I never 
really thought about the environmental or human cost of providing it. I 
just knew it came from mines. For 200 years coal fueled the development 
of this Nation's industrial strength, turned its iron into steel, 
helped enable victory in two world wars, provided heat for the homes of 
its citizens, and transported people and goods across the Nation. 
However, that mining also left the Nation with an extensive legacy of 
hazards and environmental degradation.
    The way in which we use coal has changed over the years. While its 
importance to daily life is not as readily apparent as it was when I 
was a child, today it remains just as essential to each and every 
American. More than half of the Nation's electricity comes from the 
burning of coal and our daily lives are bathed in the glow of 
electricity. The Department of Energy expects coal to remain the 
primary fuel for electricity generation for the next 20 years and 
forecasts an increase in coal production to match that demand. As ways 
are developed to capture carbon, coal's use to produce gas and liquid 
fuels may also increase.
    I saw my first surface coal mine in 1972. It was a dragline 
operation near Braidwood, Illinois that was about to close. I was 
working for Westinghouse at the time, and we were evaluating the mine 
as a potential site for a nuclear power plant. In the course of doing 
so, we also evaluated the surrounding farmland and nearby areas that 
had been surface mined some 30 years before.
    I have been involved in the environmental issues related to coal 
mining throughout the 35 years since studying that first mine. That 
experience has taken me to all types of coal mines and related 
facilities across all 26 states where coal is being mined. I also have 
experience with the mines on tribal lands of the three Indian tribes 
with active coal mining operations.
    My experience over the years has enabled me to look at the 
environmental and public safety issues related to coal mining from a 
wide range of perspectives. Initially, it was as an expert consultant, 
primarily on Western surface mines, while I was with Westinghouse. My 
work with Rocky Mountain Energy (a subsidiary of Union Pacific) was 
from the perspective of a large landowner seeking maximum return for 
its land and mineral resources. Being responsible for obtaining permits 
and maintaining daily environmental compliance at active surface and 
underground mines and related facilities for an Appalachian coal 
company (Carbon fuel) brought an entirely different perspective. I have 
also been in charge of regulatory programs responsible for permitting 
and inspecting mines at both the State and Federal level (the West 
Virginia Department of Natural Resources and the Federal programs in 
Washington and Tennessee and on Indian lands). Also, in my Regional 
Director positions, I have been responsible for evaluating all 24 state 
programs with active coal production. Finally, as Assistant Director, I 
was responsible for regulatory and abandoned mine lands (AML) policy 
formulation.
    The impacts of coal mining, particularly the growth of surface 
mining in the post-war era, resulted in passage of the Surface Mining 
Control and Reclamation Act of 1977 (the Act), which created the Office 
of Surface Mining Reclamation and Enforcement (OSM). The Act was passed 
to address the hazards and degradation from past mining through an AML 
program. The Act was also passed to create a Nationwide regulatory 
program to assure such hazards and degradation were not created by the 
future coal mining that would be needed to meet the Nation's continuing 
need for energy. Thus, the OSM exists to ensure that America gets the 
coal it needs as an essential source of energy in a manner that 
protects both land and people while addressing problems from past 
mining.
    In order to strike the proper balance between environmental 
protection and the Nation's need for coal, the OSM strives to maintain 
a stable regulatory environment consistent with the Act that is 
administered through state programs. That regulatory stability should 
enable all parties, including producers, regulators and citizens, to 
have a common understanding of applicable requirements and rights so 
that each can make informed decisions affecting their economic and 
personal interests with a minimum of controversy.
    The OSM also promotes the development and use of the best 
technologies in coal mining and reclamation to effectively: a) prevent 
catastrophic mining related events impacting off-site public safety, 
property, or the natural environment, b) assure restoration of the land 
to productive long-term uses after mining, and c) minimize off-site 
environmental degradation; all while fostering the coal mining activity 
needed for the Nation's energy supply.
    However, the OSM, cannot and does not do this alone. Of the almost 
2400 government employees directly involved on a daily basis in 
implementing the regulatory and restoration programs of the Act, less 
than 25% work for OSM. The rest are State and Tribal employees who 
permit and regulate 97% of the Nation's coal production and utilize 90% 
of the AML project funds. With the passage of the 2006 Amendments, 
which authorize Tribal regulatory primacy and increase the flow of AML 
funds to States and Tribes, those percentages are only going to go up.
    Therefore, the major task for the OSM is to help States and Tribes 
succeed by providing States and Tribes the funding, regulatory and 
policy framework, assistance, training, and technical tools to have 
stable regulatory and AML programs of high quality. If confirmed, I 
will certainly work toward that end as Director.
    Over the past several years, the OSM has made substantial progress 
in achieving regulatory stability. Increased cooperation with States 
through such initiatives as our training programs, providing technical 
tools, and promoting technology transfer has largely eliminated the 
highly contentious relationship of two decades ago. Such efforts have 
proven highly cost effective in lifting the quality of State programs 
and promoting stability.
    However, in certain areas, such as mountaintop mining, there still 
remains considerable uncertainty and controversy that makes it 
difficult for coal companies to make informed business decisions about 
future mining operations, for citizens to realize the protections 
afforded by the Act, and for regulatory authorities to apply mining and 
reclamation requirements consistently. If confirmed, I will work with 
this committee and affected parties toward increased regulatory 
stability in Appalachia.
    Finally, I would like to highlight one recent success. In 2003, as 
I toured surface coal mines in Appalachia in my new position as 
Regional Director, I was struck by the forest fragmentation that was 
occurring and by the quality research of several academic experts 
demonstrating that it did not need to be that way. In December 2003, in 
cooperation with each of the States in the region, we launched the 
Appalachian Region Reforestation Initiative (ARRI). That effort was 
targeted at overcoming the technical, regulatory and cultural barriers 
to getting more trees planted and increasing the survival and growth 
rates of planted trees. This initiative has gained wide ranging support 
from all sectors. It has also made a very practical difference. While 
some trees were being planted in previous years, by over 9 million were 
planted in 2005, and over 14 million in 2006. Further, these plantings 
have a much higher likelihood of survival and vigorous growth. Numerous 
tree planting events involving school children have been held in the 
last three years where thousands of trees were planted. An academic 
team has been formed that includes 23 researchers from 10 universities 
and the U.S. Forest Service. That team is now developing ``reclamation 
advisories'' written at the high school science level for use by 
operators and regulators right down to the inspector and dozer operator 
in how to promote tree survival and growth and jump-start natural 
succession.
    Efforts such as this highlight the importance of training, 
promoting scientific understanding, and encouraging the development and 
use of emerging technologies. If confirmed, I will continue to emphasis 
the importance of building bridges with academic institutions across 
the coal fields and will promote technical training and technology 
transfer among the State and Tribal regulatory and AML programs.
    Again, thank you for the opportunity to appear before you today and 
express my express my deep concern and interest in the OSM and its 
mission.

    The Chairman. Thank you all for your statements. Let me 
just ask a couple of questions and then defer to Senator 
Domenici.
    Mr. Albright, let me just ask one. When you look in the 
relative short term, meaning the next couple of years, one of 
the greatest opportunities we have for actually meeting our 
energy challenges is through increased efficiency and increased 
conservation. What do you see in your new position, in this 
position you've been nominated for--what responsibility would 
you see yourself having for promoting energy conservation or 
efficiency?
    Mr. Albright. I think they're in the budget that has been 
approved by both Houses. I believe there's--I don't know the 
number--a good bit of money for R and D toward both of those 
goals. I think one of the things we have to do with 
particularly conservation of energy is educate the public to 
ways to do that and make available means to save electricity 
and save energy.
    Certainly the Government role is important. I think we have 
an office or two in the Department that is charged with 
ensuring that we do the best and most efficient job we can on 
that. I will work very, very hard to see that we do that.
    The Chairman. Let me ask Mr. Caswell a question about an 
issue that we visited about in my office just very briefly, 
related to the BLM Administration of the potash leasing area in 
New Mexico. This is an issue that has been the subject of 
controversy because of the competing demands. We have two 
resources there. We have potash; we also have some oil and gas. 
There has been a patchwork of development involving both 
resources. This is something that we're anxious to try to 
rationalize in some way, so that we are sure that we are 
maximizing the preservation of the resources and the 
utilization of the resources.
    I mentioned that to you when we visited before. It's 
something I believe we are planning to visit with the Secretary 
about as well. I didn't know if you had any comments you could 
give us today about the issue. If so, I would welcome those.
    Mr. Caswell. Mr. Chairman, I'm learning about this issue 
this week. I think as we talked the other day briefly when I 
met with you--and I want to thank you for the opportunity to do 
that--that I still believe passionately that if we can get 
these folks together, the various interests together, I think 
we can find solutions in that sort of an approach. So if I'm 
confirmed I would be happy to work with you and your staff, 
Senator Domenici's staff and himself, the Department, obviously 
the Bureau employees, and we'll see what we can do to bring the 
parties together to try to resolve this issue.
    The Chairman. All right, thank you.
    Mr. Wahlquist, let me ask you also. I believe this is an 
issue you and I visited on briefly. There's a section of the 
Surface Mining Reclamation Enforcement Act, section 409, that 
allows the use of abandoned mine land funds for both coal and 
non-coal reclamation work. I understand that the Office of 
Surface Mining may be interpreting recent amendments by the 
Congress to preclude the use of some of these funds for non-
coal sites. This is obviously important in a State like ours, 
in New Mexico, and in other western States. We've written to 
Secretary Kempthorne expressing our concern about any inability 
to use these funds for non-coal reclamation activities.
    Is this an issue that you could give us any insight on as 
to what could be done here? Is this something you could look 
into for us?
    Mr. Wahlquist. Certainly the 2006 amendments are a very 
complex piece of legislation, with lots of internal references. 
Over the past 6 months we've been involved in an extensive 
effort to outreach to all parties in terms of getting their 
views as to how the statute and these amendments should be 
applied, including the issue that we discussed yesterday on 
non-coal use. We're currently involved with the solicitor's 
office in having them look at, OK, what do these amendments 
really mean, and if confirmed we'll certainly work with them to 
make sure that we are implementing the statute in the way that 
it has been given to us and will not unduly try to restrict 
that intent.
    The Chairman. If we do find that there's some disagreement 
between your solicitor and the Congress or some of us here in 
the Congress on that, we may have to revisit that issue.
    Senator Domenici.
    Senator Domenici. I'm going to take just a minute and 
follow right on where you were on the issue that Senator 
Bingaman, the chairman, had just raised with reference to land 
reclamation, abandoned mine land reclamation. If interpreted in 
a way that does not permit you to use that money for non-coal 
mines, New Mexico will lose enormously. We want you to know 
that we didn't think that was the way the law was intended and 
we'd like to be kept apprised of any thoughts or actions that 
are moving in that direction so we could act accordingly, 
although we don't think we need new legislation.
    You understand our position and know how serious it is.
    Mr. Wahlquist. I am very aware of your position and 
understand the serious nature of your view on that, and we will 
certainly work with the solicitor's office to come with what we 
feel would be an appropriate interpretation.
    The Chairman. Thank you.
    Let me just say to Mr. Albright it was a pleasure working 
with you when you were in your position in the House. I would 
like to ask you a question. I won't hold you to anything, but 
just think with me for a minute. What issue do you think is the 
most important one in the Energy Act that we've adopted that 
has not been totally implemented or implemented as you might 
have thought?
    I will just lead you on that a little bit by telling you 
that some of us don't think that the loan guarantee sections 
and those areas where we were going to have money for new 
technology have been used to the fullest extent. Do you have 
any views on that? Maybe a more straight question like that 
might be more fair to you.
    Mr. Albright. Senator, I share your concerns as a staffer 
currently on the House side and just as a citizen. There does 
seem to be an awful lot of delay. There seems to be some 
questions as to interpretation of that program. As you know, we 
worked very hard to get it in, and I think there is some, give 
and take, argument if you will, inside the Government between 
the branches as to exactly what was meant by Congress.
    I will try and wrap my arms around that, sit down and learn 
what the problems are. I was at the table with the Members when 
we put that in. I think I know what was intended and I think it 
is a very important part of the legislation that needs to be--
and we need to get the regulations down and get them out 
quickly.
    Let me, if I may, just add that I think the concern of the 
Administration, and particularly Secretary Bodman, is that we 
not allow a situation where the private sector or anyone 
misuses the public fisc. I think he has legitimate concerns in 
ensuring that the financial integrity of whatever loans are 
made are intact, and that's certainly something that we should 
all be concerned with.
    Senator Domenici. Let me just say to you we're well beyond 
interpretation, those who wrote the Act. We believe we know 
what it said and we do believe the Administration has gone 
awful slow. We think they finally have come to a realization 
that we must have money in that fund and that we must do it. 
You'll find that when you get up there, and I just hope you 
will be an activist for getting some projects started, which 
will end up accruing to the future of the United States without 
any question.
    Thank you very much.
    Mr. Caswell, let me talk with you a minute. Senator 
Bingaman raised a question that in each instance is very 
important to this Senator also, and that's the question of the 
conflict that's growing in New Mexico on BLM land with 
reference to the production or possible production of oil and 
gas and the existence in the area of potash.
    You will find out that the only potash the United States 
has is potash down in Eddy County, all the potash America 
produces is there, and that it has become an extremely valuable 
agricultural product. You will find that, by coincidence, the 
same thing has happened on one side of it--oil and gas are very 
important and they're being found on some property that is 
close at hand.
    The issue must be resolved so that potash does not lose its 
future, and that's their issue. They are not interested in 
today; they're interested in the long-term viability of potash. 
Obviously, those who want to drill are interested in finding 
more petroleum products now. That issue has to be resolved by 
you or by us, and we believe it should be resolved by you.
    I understand that you are going to see to it that every 
effort is exercised to get the parties together to understand 
and try to agree on a solution. Is that correct?
    Mr. Caswell. Senator, as I indicated, I will be happy if I 
am confirmed to work diligently and to work with you on this.
    Senator Domenici. All right. We want you to understand that 
we think it's big enough that we have taken it to the 
Secretary. He'll probably have you there. We will have a 
meeting with him, the two Senators, to tell him how important 
these two products are to our State. Where could you have a 
bigger conflict, except that potash probably from the 
standpoint of being the sole source of potash in the country at 
this particular moment takes on a new light that it did not 
have in the past. We will expect you to understand that 
thoroughly and work with us. Thank you for your comments.
    I only have one left and it has to do with Ms. Epifani. I 
have a long one about the job you will have here and what you 
will do. I prefer just to ask you, what do you consider to be 
the most important aspect of your job? It has a long title. 
What do you think you will be doing to help the Department of 
Energy?
    Ms. Epifani. I think the most important thing I can do for 
the Department of Energy is to serve as a liaison between 
Congress and the Department and to really carry the message 
back to the Agency and to the Administration as to what the 
political dynamics are on the Hill and what the priorities are 
that we need to really focus on and to make sure that we 
complete implementation.
    Senator Domenici. You represent the President, is that 
right?
    Ms. Epifani. Correct.
    Senator Domenici. Thank you very much.
    Thank you, Senator Bingaman.
    The Chairman. Thank you.
    Senator Salazar?

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Senator Bingaman.
    Let me first say to the nominees here today, 
congratulations to each of you for being nominated for these 
very important positions for our Nation. Congratulations as 
well to your families who are here today.
    Let me also say that I've served on this committee with 
both Senator Bingaman and Senator Domenici both in their 
capacities as chairman and ranking member, and I've been very 
proud of the work of this committee because I think this 
committee really is at the forefront on working on what is one 
of the signature issues of the 21st century for America, and 
that's energy and how we make sure that we deal with all of its 
implications from national security to the economic security 
and environmental security of our country. Each of you will 
have a significant role as we move forward on that agenda.
    I have an opening statement, but I will submit that for the 
record if that is OK, Senator Bingaman. I would ask, since it 
refers to at least three of you, that you review that.
    Let me just make a quick comment to you, Mr. Albright, and 
to Lisa. Thank you for the work that you did with us on 2005 
EPAct. I know there are other people who are in the room who 
worked very hard on that as well, so thank you. I think it's a 
big bill. We have another big bill that we're moving through 
now and we hope that we get that to the President's desk also 
some time this year.
    I have a couple of questions, first of all to you, Mr. 
Albright. With respect to the National Renewable Energy Lab in 
Golden, Colorado, I have worked closely with Secretary Bodman 
and President Bush and others to make sure that it has the 
resources to move us forward in that direction. What is your 
view of NREL? What do you know about NREL and what would you 
expect to see at NREL in the future?
    Mr. Albright. Senator, I have to confess I don't know 
enough to discuss it with you in any detail here today. I will 
pledge to you, though, I will learn everything I can about it.
    Senator Salazar. Let me just ask you if you would put that 
as a high priority on your list, because they truly are at the 
forefront in terms of looking at all of our new energies, from 
solar to wind to biomass to hydrogen, and really are the crown 
jewel within the system in terms of what we're doing on energy. 
Secretary Bodman has visited with me there several times, as 
has the President. I also would encourage you to do the same.
    Mr. Albright. I pledge that I will do that. I do know the 
importance of the work that goes on there. I just don't know 
the details at this juncture.
    Senator Salazar. One of the big issues always is funding, 
and frankly, if we're going to put our shoulder behind the 
wheel of renewable energies and new technologies, we're going 
to need the Secretary of Energy and the Under Secretary of 
Energy to do that.
    Ms. Epifani, I just want to tell you that I look very much 
forward to working with you and having my office working 
closely with you as you take on your role as Congressional 
liaison.
    Mr. Wahlquist, to you, and then I'm going to come back to 
Mr. Caswell. Let me just ask you this question. Abandoned 
mines. In my State of Colorado, there are some tens of 
thousands of abandoned mines, nothing being done about those 
abandoned mines. What would you think we can do to deal with 
the abandoned mine problem that we see throughout the West?
    Mr. Wahlquist. Well, certainly in terms of the 2006 
amendments, they focus very much on the use of that fund and 
will increase the flow of money in a fairly prescribed way to 
the States and certainly will increase the flow of money to 
Colorado and other western States. Right now that's a very 
prescribed process and there's not a lot of leeway or 
flexibility in just how that money is going to flow.
    Senator Salazar. Are you supportive of that approach?
    Mr. Wahlquist. I'm certainly supportive of implementing the 
statutes that the Congress has passed, the President has 
signed----
    Senator Salazar. Do you think there are additional things 
that we might be able to do in that area?
    Mr. Wahlquist. What again, sir?
    Senator Salazar. Do you think there are additional things 
we ought to be doing with the AML issues?
    Mr. Wahlquist. If confirmed, I would not advocate any 
further changes at this point. I think that we need to move 
forward in implementing the amendments that we have been given 
this past year.
    Senator Salazar. Mr. Caswell, let me just say that you and 
I had a good 45-minute meeting in my office. I intend to place 
a hold on your confirmation until I'm able to sort out some 
things with Secretary Kempthorne relative to how we will dialog 
from the Federal level to the State level. For the record, 
Chairman Bingaman, I will submit letters written to Secretary 
Kempthorne on May 14 of 2007 and April 17 of 2007 from Governor 
Ritter of Colorado where he requested what I thought was a very 
reasonable delay of 120 days on the record of decision with 
respect to drilling on top of the Roan Plateau, which is a very 
special place, not dissimilar to the Via Vidal which you, 
Senator Bingaman and Senator Domenici, protected last year.
    That request was, frankly, met with silence and actually 
the action that was taken was I thought inappropriate, given 
what the Governor had requested would seem to me to be a 
reasonable request.
    Senator Bingaman, I know my time is up. May I have another 
few minutes to try to finish?
    The Chairman. Please, go ahead.
    Senator Salazar. For me, as I said in my office, I am not 
against the development of our natural resources in Colorado or 
throughout the West. I think the development of those resources 
is essential as we try to meet the energy needs of our country. 
I'm also concerned about the sustainability of our way of life 
in Colorado. In just a part of my State, in the five counties 
of northwestern Colorado, today we have about 5,000 oil and gas 
wells that are in operation. Within 15 years we're going to go 
from 5,000 wells to 60,000 wells. I think about the impact 
that's going to have on the landscape of western Colorado, 
which is very much dependent on tourism and the recreational 
industries to essentially fuel that economy.
    What I want to do as we look at the development of oil and 
gas on the western slope of Colorado, where the BLM has about 
8.4 million acres or so under its jurisdiction, is to make sure 
that we're able to move forward in a collaborative way. Senator 
Domenici and I visited one of the oil shale demonstration 
projects last year, which Shell has invested significant 
amounts of money in. There are other demonstration projects. 
Oil shale is a big thing for our country. It's a big thing for 
my State, and about 80 percent of the oil shale deposits are 
located in my State.
    One of the things that we did in the 2005 Act is required 
collaboration to take place between the Department of Interior 
and our States with respect to oil shale development. I want to 
make sure that we're going to have that kind of collaboration, 
so that if my Governor or that if I request some opportunity to 
review a decision or a set of documents or planning agendas of 
the BLM that we're going to have the right kind of 
communication and collaboration, because that's the only way 
that we're going to be able to move forward and develop those 
resources in the appropriate way.
    So you and I had a long conversation and until I get these 
issues resolved with Secretary Kempthorne I am going to place a 
hold on your nomination. If you would wish to respond relative 
to how you're going to balance the protection of our natural 
resources in the West, as you have in Idaho, against what 
happens with respect to development in a general way, I would 
invite you to do that.
    Mr. Albright. Thank you, Senator. I understand the 
situation. My whole philosophy is based on collaboration. 
That's what I do now for the Governor. It's what I've been 
doing in my current capacity. We've been quite successful. I'm 
committed to that.
    I am as concerned about development and its long-term 
impacts as you are. We have to be thoughtful. I believe, again, 
in multiple use, but we have to be thoughtful about how we do 
it. We have to think it through and think about long-term 
consequences before we make decisions. That demands the kind of 
integrated--it's a kind of an overused word, but--collaboration 
with people on all sides of the issue to come to some 
resolution.
    At the same time, we do need to make decisions. We do need 
to be efficient at that. We do need to move forward. So I mean, 
that's part of my fabric. That's how I function.
    Senator Salazar. Well, I'm sitting down with Secretary 
Kempthorne here in the next week or 2 and he and I will have 
another conversation. But I appreciate your long history of 
involvement on public lands and hope and wish that you do get 
the confirmation.
    The Chairman. Thank you very much.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman.
    It's interesting that the native Idahoan, Dr. Wahlquist, is 
the one gentleman I know least of all who is before us. So 
doctor, we're going to have to get to know each other. Probably 
the absence of our knowledge of each other is because we don't 
mine any coal in Idaho. You may have stocked your family's cook 
stove with coal, but I doubt that it had been produced in 
Idaho. That coal was probably coming out of Utah at the time, 
was it not?
    Mr. Wahlquist. I would expect that it was. I have no idea 
where it came from. All I know is it was in the coal bin.
    Senator Craig. Well, anyway we welcome you. The role you 
play I think has been well defined, or the role you will play 
has been well defined by your statement and questions that have 
been asked of you, and we're anxious to have you in that 
position. Obviously, the role of coal in future energy needs is 
going to be a large one. We're trying to sort out now how we 
approach that as a country. Obviously, it will have to be 
cleaner than it currently is, and we're all rushing toward that 
with as much effort and technology as we possibly can.
    Thank you for accepting the position. It's an important 
one.
    Let me, of course, turn to Jim Caswell. I am frustrated 
always when at the very beginning of a process you are warned 
that you've been put on hold. The fires of the West are not on 
hold. The need to balance and get busy on our public lands is 
not on hold, and I hope we can work out our differences with my 
friend from Colorado as quickly as possible.
    I know that decisions are made, and I sometimes know that 
when Administrations change after decisions are made there's 
some frustration as to what might have gone on prior to an 
Administration coming into place. So Ken, any way I can work 
with you and with our I hope new Director to resolve the issues 
that you've expressed, I'm certainly available to do that. Jim 
Caswell will become one of the largest land managers of the 
United States and it is critical that we have him working in 
our behalf on all of these fronts as quickly as possible.
    A question of you, Jim. What do you mean--and you said it 
in your statement; it may fit the Roan Plateau issue to some 
extent--of ``place-based ecosystem management principles''?
    Mr. Caswell. Senator, what I meant by that was as you plan, 
as you develop either projects or programmatic planning, for 
that matter, you need to consider the resources, the scientific 
information, the background, the material, that's germane to 
the location of the project. As a part of that, it's not only 
the physical resources and the scientific information, the 
survey information, the monitoring information that you bring 
into the solution. It's also the effects on communities, it's 
the effects on the values in those communities, it's the 
effects on the social aspects.
    So you bring those pieces together as you analyze and 
develop the decisions that flow from whatever the project or 
programmatic effort is under way. That's what I mean by 
``place-based,'' at the local scale, at the local level, and at 
the proper scale. If it's a programmatic decision, it needs to 
be at a broader scale. If it's a site-specific project on a 
specific area, it needs to be at a finer scale. That's what I 
mean by that.
    Senator Craig. I thank you for that. Certainly the role 
you'll play in energy development in the West, in the 
Overthrust country, in the Powder River Basin down through 
Colorado, are going to be as critical to those States as sage 
ground and slickspot peppergrass has been to Idaho. Different 
resources affected, different impacts, but very important for 
all of us.
    Lisa, I've had the great opportunity of working with you 
when you were staffing this committee, and already both the 
chairman and the ranking member have spoke of the role you 
played in the shaping of the 2005 Energy Policy Act. So I look 
forward to your new role. It's always fun to be working with 
someone you know and that you understand has some of the same 
knowledge that you have, and obviously helped shape some of the 
policy that will ultimately be implemented. So we thank you for 
that. Thank you for being willing to accept the position that 
you will hold.
    In that same role, I had the opportunity to get to know 
you, Bud, very well in working, as you did, with the House and 
with Chairman Barton. I have a very simple request of you, not 
unlike what the Senator from Colorado requested. As you either 
go to Colorado or come from Idaho to Colorado, it's important 
that you come to our laboratory and get to know all of the 
things that are going on out there at the INL.
    It is a premier laboratory, as many of our energy labs are 
that you will have substantial jurisdiction over. The R and D 
work that goes on there is preeminent and will continue to be 
as we expand the horizon of nuclear energy in this country. So 
we look forward to your role there and to the implementation of 
the Energy Policy Act. Senator Domenici expressed and I share 
his expression of frustration as to some of the slowness that 
occurred following the passage of the Act.
    I believe our country is in an energy crisis and, while I 
know we must proceed with proper due diligence and proper 
environmental concerns, to deny our country, our economy, our 
consumers, adequate energy, to have failed in establishing a 
secure energy source and sources for our country, is negligence 
and, tragically enough, it plays in politics. That is something 
that we'll debate long and loud in this committee and before 
the Senate and the House over the years ahead.
    I suspect our consuming public grows weary of the political 
debates when they are now paying the price they're paying for 
the political debates and decisions of several decades ago as 
it relates to our energy supply. We are at risk today. I 
believe we are in crisis today as it relates to energy. So the 
role you'll play, the role that Dr. Wahlquist will play and 
others, as it relates to working cooperatively to secure that 
future is going to be important.
    Obviously, Jim, the role you'll play as steward over 
potential large energy reserves out there to be developed are 
going to be increasingly important, and I thank you all for 
being willing to do that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman.
    Welcome to all. Mr. Albright, let me begin with you. You're 
going to be managing the energy portfolio, of course, and it 
just seems to me to be very much out of whack, out of balance. 
I was in Klamath Falls, Oregon, last week and very excited 
about the potential for geothermal in Klamath Falls. They were 
very excited about the fact that the Department had paid for 
the study, the MIT study that showed that the potential energy 
available from geothermal in the United States is thousands of 
times our total energy consumption.
    So then I looked at the Department of Energy budget and no 
funds are requested in this area for the second year in a row. 
I looked at the nuclear energy development budget proposal. It 
goes from $120 million to $568 million. So that's the kind of 
thing that I'm concerned about, because it reflects an 
extraordinary imbalance in the portfolio which you will be 
running, and I'd like to know what you're going to do to try to 
put a little bit of balance back in the portfolio.
    Mr. Albright. Senator, yesterday when we met you mentioned 
this and mentioned the MIT study. It was the first I had heard 
of that study. I did get a copy of it. I can't say that I read 
all four or five inches of it last night, but I did look 
through it, and I saw some pretty interesting things in there 
myself. I think the number was, as you say, thousands, I think 
it was 2,000 times the need. I believe there was a reference to 
cost competitive electricity within I forget the number of 
years.
    It seemed to me, looking at that report and I understand 
that reports sometimes are more--
    Senator Wyden. On the question of balance, sir, how is it 
balanced that there's no money there and a huge increase in the 
budget for nuclear energy development? How specifically is that 
balanced?
    Mr. Albright. Well, until I get there and look at it, it's 
awfully hard to say.
    Senator Wyden. It's also true that no funds were requested 
for wave energy, tidal energy, hydro technology. I mean, I 
think this is something we ought to have on the record today, 
whether you think that that's balanced. I'm giving you the 
numbers: zero in these other categories, huge increase in 
nuclear energy research. Is that balanced in your view?
    Mr. Albright. Senator, not having been a part of the 
discussion to why those numbers are where they are, it's very 
hard for me to say. I can say that I do think nuclear is very 
important and does need to ensure that the nuclear power we 
have is sustained and that the power that we don't have is, 
particularly in nuclear, is enhanced.
    I do share, as I was saying, I share some of your concerns 
as I look at this report and I do have some questions that I 
will be asking of the people in the Department of Energy as to 
why something like geothermal is zeroed out. I don't know the 
answer to that. In looking at the report I have some concerns 
as well.
    Senator Wyden. I appreciate your looking at the report last 
night. You're going to have to have a better answer on the 
balance question to get my vote in this committee. I mean, this 
is a defining part of the energy debate. I'm prepared to 
support the research in the nuclear development, but when 
that's here [indicating] and everything else is here 
[indicating], I think it's a straightforward issue as to 
whether or not you think it's balanced. We'll have some more 
conversations about it.
    Mr. Caswell, if I can turn to you. You and I talked about 
yesterday the inspector general report with respect to the 
Department ought to set off alarm bells for everybody who's 
thinking about service at the Department of the Interior. The 
inspector general says that the Department's been an ethical 
quagmire, and he specifically talks about Mr. Abramoff, Mr. 
Griles, Julie MacDonald, the most recent individual who 
resigned after it was revealed that she bullied scientists at 
Fish and Wildlife--a consistent pattern at the agency of, in 
effect, putting politics over science and sensible policy.
    You've got a reputation as a straight shooter. We did some 
checking and people really do think that you've been fair and 
looked at the merits of the questions. What are you going to do 
if you're confirmed to stop these very troubling ethical lapses 
at the Department?
    Mr. Caswell. Senator, the only thing that a person has is 
their reputation and their integrity. I will continue to be 
sure that I operate in that vein.
    I think the other thing that impressed me, having read the 
report earlier, and I mean some time back actually, the thing 
that impressed me was I arrived in Washington on Sunday night; 
Monday morning when I arrived at the Department, the first 
place, the first appointment, the first people that I sat down 
with, was the new ethics staff that the Secretary has assembled 
at the Department. We spent about an hour and a half going 
through expectations, rules, all of those things.
    I've had contact with those same folks over a successive--
phone conversations, email, all that kind of thing, in the past 
month or month and a half prior to this week on all of the 
paperwork. On Tuesday morning I had a conversation with the 
Secretary. The first thing we did was review the letter he sent 
to all employees, his ten points, the review that was done on 
the ethical standards and what the Department had been doing in 
the past to meet the intent of those.
    Yesterday we had another meeting with the ethics people. I 
find them to be very forthcoming, very willing to help, 
available.
    So I think in my mind it is, this whole question, is being 
dealt with. It will take some more time. I intend to reinforce 
the Secretary's commitment to this. In fact, I can go back as 
far as 2000 when I first went to work for then-Governor 
Kempthorne and he had a similar activity going on with his 
directors, not spawned by any huge issue, but he was concerned 
about ethics and how we operate in State government as well. So 
I will continue that. I will make this a priority with the 
people in the BLM and we will do everything we can to be sure 
that people operate ethically, honestly, and treat the treasure 
and the resources of this country in a fair and equitable way.
    Senator Wyden. My time is up. I'm planning to support your 
nomination, Mr. Caswell. We need you to go down there and drain 
the swamp. One of the concerns I had about the Julie MacDonald 
issue--and of course I did put a hold on Mr. Laverty and that 
remains there until I'm convinced we're going to get some 
changes--is that some of what she seems to have done with 
respect to these abuses, these ethical abuses, seems to have 
taken place after Secretary Kempthorne got there.
    I like Secretary Kempthorne. Like you, I served with him. 
We've got to turn this around. So I plan to support your 
nomination and it is on the basis of your reputation and your 
answers today.
    Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    First of all, I'd like to congratulate each of you on the 
nomination, congratulate your families. They have a reason to 
be very proud.
    If I could, Mr. Albright, visiting with you--Wyoming is a 
coal State. Coal is America's most abundant fossil fuel. More 
than half of our electricity comes from coal. I believe our 
electricity transmission system is inadequate. What I'd like to 
know is, in places like Wyoming where we lack adequate 
transmission capacity to get electricity to market, what role 
can your office play in addressing this problem?
    Mr. Albright. One of the things, as you know, Senator, that 
was in the EPAct 2005 was the provision that would allow the 
Federal Government at the end of the day, if the States 
couldn't make decisions on where to site the transmission 
lines, the Federal Government could step in. That's through 
FERC, which is not controlled by the Department of Energy. It's 
an independent agency. I think that will go a long way to 
helping. Most of the problems with these lines seem to be with 
siting, and communities don't particularly want new 
transmission lines going through their back yards, and most of 
us can understand that.
    The fact of the matter is you can't get the electricity 
there without the transmission. The Department is working on 
ways to improve efficiency of transmission through various 
nanotechnology provisions and other technological advances. So 
we hope we can do more with the transmission we have. We 
clearly need more transmission. I recognize that. I come from 
an electricity background. We'll do certainly everything we can 
to try and get those lines strung.
    Senator Barrasso. Thank you very much.
    Ms. Epifani, you have a great reputation. I understand 
you're terrific from visiting with all of the people who've had 
an opportunity and privilege to work with you, and I look 
forward to working with you as well. Thank you.
    Ms. Epifani. Thank you, Senator.
    Senator Barrasso. Mr. Caswell, my time is limited. I'm 
looking forward to an opportunity to sit and visit with you. 
Clearly the BLM has a major role in Wyoming. Currently in terms 
of leases in the lower 48 States, Wyoming is No. 1; the most 
acres for oil and gas leasing, over 13 million acres. So I'm 
hoping that we have a chance in the days ahead to sit and visit 
and then have some substantive discussions on these very 
important issues, if that would be fine with you.
    Mr. Caswell. I'm looking forward to it, Senator.
    Senator Barrasso. Thank you very much.
    Mr. Wahlquist, one of the issues that I'd like to bring up 
is the abandoned mine lands program. Wyoming approaches AML 
from a somewhat different perspective. In Wyoming we are the 
largest financial contributor to the program, have been for 
years. We certainly support reclamation, protecting our 
environment for future generations. I've looked at the sites. I 
think they're doing a fine, fine job in Wyoming.
    As I read the statement--I don't think you read all of it--
you talked about being the youngest of seven sons and you 
learned the natural order of things, which to me, with my 
brothers the natural order of things was fighting for food, 
fighting for clothing, and hand-me-downs.
    I have to tell you, in the Wyoming State legislature and in 
the State Senate I think all of us were extremely frustrated. 
We always felt like that youngest of seven sons, fighting with 
the Federal Government because of their failure to honor the 
commitment to the State and to Indian tribes to return half of 
the fee to them. That frustration grew every year as Wyoming 
paid more and more and didn't get the money back.
    In December of this year, Congress changed the law 
mandating that certified States and Indian tribes are going to 
receive their portion of AML funds. The intention of Congress 
was to mandate those payments and currently Wyoming is owed 
over $500 million.
    What I'm asking you is, will you and can you make sure that 
happens for Wyoming and the other States and tribes involved? 
It's a very important issue for our State and many of the 
States who have been paying in and have not yet received their 
money.
    Mr. Wahlquist. Again, Senator--and I appreciate the 
question--the amendments, the 2006 amendments, have some very 
specific provisions in them that go toward that end, and we're 
working with the solicitor's office as we determine, and if I'm 
confirmed we will proceed to see that those moneys flow in 
accordance with the statute that was passed.
    Senator Barrasso. I know time has not been on our side, and 
your office has been in touch with my office, so we could visit 
and meet on these things. Hopefully we can do that very soon 
because this is a critical issue to our State and our future.
    So thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Senator Tester.

          STATEMENT OF HON. JON TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. Well, first of all, thank you, Mr. 
Chairman.
    I want to express to Senator Barrasso I'm looking forward 
to serving with him on this committee. I appreciate you being 
on board on this. This is the first committee I've been, beside 
the committee as a whole, the first committee I've been able to 
serve with you on this, and I look forward to it.
    For the members of the panel, I appreciate you being here 
today. I'm sorry I wasn't here for your opening statements. I 
do appreciate the fact that you're willing to serve. I don't 
have a lot of questions for all of you. I do have a couple for 
Mr. Caswell. Thank you, Jim. I appreciate you stopping by the 
office and visiting. Some of these are going to be repetitive. 
I just want to get them on the record.
    Mr. Albright, I will just say, kind of dovetailing on what 
Mr. Wyden said, I think what I look for in an energy policy is 
one that is balanced and one that every opportunity we have out 
there is taken advantage of in a way that meets the needs of 
this country and the world, now that we've got global warming 
the way it is.
    So I respect your answers, but in some part of the aspect I 
do think that it is a bit troubling to me that parts of the 
budget are expanded on and why others are not, I personally 
can't figure out either. You may be able to once you get 
delving into it.
    Mr. Caswell, once again I want to thank you for being here. 
A couple questions that deal--most of these questions are going 
to deal with communication for BLM. We talked about some of 
this yesterday, like I said. Right now it is my understanding 
that surface owners are not, on the split estates, are not 
finding out about the leases that BLM are doing until after the 
fact, if at all. So the question I have is do you intend on 
notifying the owners before those leases to out, to let them 
know, the landowners, to let them know that those lands are 
potentially going to be leased? How will you do that?
    Mr. Caswell. Thank you, Senator. I appreciate the time we 
did spend together. I enjoyed that meeting a great deal.
    As we discussed, this is something that goes kind of back 
to my core. I mean, we have to work with people, and people 
need to know what's going on. So if that in fact is happening, 
we're not communicating properly with the surface wonders, then 
we need to rectify that. The Bureau in my view needs to be the 
facilitator of this effort. I will definitely, if confirmed, 
look into this. I just think it's really important.
    Senator Tester. I would assume that your intention would be 
to directly notify these folks, not just put it on a web site 
or on an office door?
    Mr. Caswell. Absolutely.
    Senator Tester. Before the fact.
    A couple other questions. We talked about multiple use 
yesterday, whether it's the traditional sheep and livestock 
industry or as it relates to oil and gas production or whether 
it's fish and wildlife issues as it relates to that ecology and 
our hunters' ability to go out and hunt. I guess, how is BLM 
going to ensure that public lands proposed for leasing will be 
managed for that kind of balance of traditional and multiple 
use, both from a hunter standpoint, a traditional agriculture 
standpoint, and an oil and gas standpoint?
    Mr. Caswell. Senator, that's a weighty question and it begs 
for local decisionmaking in my view. I can't sit here and 
answer it for you. What I can tell you is that I'm committed to 
balanced use. We have to find solutions. We have to problem 
solve on these issues. We have to work hard at that. We have to 
create an atmosphere that brings people together and that 
accommodates to the best of our ability the balance that's 
necessary between those competing uses.
    I know that's not a really crystal clear answer, but this 
whole thing is very messy. It's very messy and it's very 
difficult to do. It has to be done that way. Otherwise all you 
have are winners and losers.
    Senator Tester. Are you personally weighted to one or 
another? Are you weighted toward traditional agriculture or 
weighted to oil and gas exploration or weighted toward 
wildlife? Traditionally hunting is the way I perceive that.
    Mr. Caswell. Personally, Senator, I say no. I believe again 
that we need to manage our resources. I don't believe that 
every acre is a resource or has resources on it is something 
that has to be developed. I believe in wilderness, all those 
things. It has to be done, and you have to make decisions. You 
can't just fight over this until you're at a stalemate and 
nothing occurs.
    Senator Tester. Your reputation is very, very good, as has 
been pointed out earlier on this panel, as a straight shooter 
and somebody who's straight up on issues and willing to fight 
for what's right. You may be in this position for a long, long 
time. You may be in it for a year and a half. You may be in it 
for less than that. I hope not. I guess the question is, and 
this is looking out a little further, and that is does BLM have 
a plan or are they thinking about plans whereby if one of these 
industries is negatively impacted--I'm talking about 
traditional agriculture specifically or wildlife, so that 
hunting opportunities are diminished, or anything else that you 
might think of out there; those are the ones that come to my 
mind--if those opportunities are diminished because of the oil 
and gas drilling, does BLM have a plan to help compensate?
    Mr. Caswell. Senator, I honestly do not know if that's 
being thought about, talked about. I would assume not, but I 
have no idea.
    Senator Tester. Would you encourage conversation on those 
kind of issues? Is that something that you'd have time to put 
some time into, to move forward? I know we're talking about 
hypotheticals, but it depends how intense the drilling is and 
it depends on where it's being done. As we talked about 
yesterday, I know sage grouse is not on the endangered species 
list. I don't want to see it go on. The impacts of a potential 
307,000 acre lease south of the CMR Range on wildlife could be, 
depending on how extensive the drilling is, either devastating 
or, if it's managed correctly, it could have little or no 
impact.
    Mr. Caswell. The direct answer to your question, Senator, 
my knee jerk to that is that's a very slippery slope. I would 
be hopeful that if we work together we can find the latter 
course.
    Senator Tester. The last question, and I know I'm out of 
time, so I appreciate the chair's perseverance here. As we talk 
about private property rights and split estates, what we're 
dealing with with BLM land is public lands. Would you make an 
effort in your position to let the public know that these 
leases are being offered long before, at least a reasonable 
time before, that they are being offered? Because right now the 
public is finding out after the lease has been granted. So that 
they have the opportunity for input.
    Mr. Caswell. Senator, absolutely. I think that's the law, 
actually. I mean, we're obligated to let the public know what's 
going on. I would make sure that that occurs.
    Senator Tester. It's my understanding--and you can check 
into this, because I could be wrong. It's my understanding that 
they're being notified after the sale, not before. That's a 
critical component.
    Thank you very much. I just want to express the fact that 
you people come out here, you lay your hearts and souls on the 
line, and I really, really appreciate your public service. 
Thank you very much.
    The Chairman. Thank you all for being here and testifying. 
We will make provision that if any member of the committee has 
another question they would like to submit in writing we would 
require that that be done, submitted to the committee staff by 
5:00 this evening. We would then ask that you respond to those 
questions, if any are submitted, in writing.
    With that, we will conclude the hearing and we will 
adjourn. Thank you very much.
    [Whereupon, at 10:57 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              


      Responses of Lisa Epifani to Questions from Senator Salazar

    Question 1. One of the missions of the Office of 
Congressional and Intergovernmental Affairs is to promote the 
Department's programs and initiatives with the general public. 
As our country looks to promote greater use of renewable 
energies, and greater energy efficiency, there are many 
challenges to educating the general public about energy and the 
opportunities they have to be smarter about their energy use. 
Can you describe what role you see the Office of Congressional 
and Intergovernmental Affairs playing in promoting energy 
efficiency and renewable energy opportunities to the general 
public?
    Answer. The Office of Energy Efficiency and Renewable 
Energy and the Office of Public Affairs have the primary 
responsibility at the Department of Energy (``DOE'') for 
promoting energy efficiency and renewable energy directly to 
the general public. However, the Congressional and 
Intergovernmental Affairs Office (``CI'') also plays an 
important role advancing DOE's efforts to increase public 
awareness of the value of efficiency and the importance of fuel 
diversification.
    Through its contact with members and their staffs, CI is in 
a unique position to learn about different state and regional 
efforts to address energy challenges and promote renewables and 
efficiency. CI can share this information with other DOE 
program offices and suggest venues and opportunities to 
highlight the good work of states and coalitions and related 
Federal efforts in order to increase general public knowledge.
    CI can be instrumental in informing members about upcoming 
Administration activities or DOE events that can be useful 
venues to help increase public awareness on issues like 
renewables and energy efficiency.
    CI can take advantage of its working relationship with the 
national laboratories, like the National Renewable Energy 
Laboratory in Golden, Colorado, to find opportunities to 
highlight the value of fuel diversity and efficiency to the 
general public.
    Although CI's work is mainly to serve as a liaison between 
DOE on the one hand and Congress, State governments, and Tribal 
governments on the other, there are certainly opportunities 
where CI's relationships and knowledge can be harnessed to 
serve the general public. Improving energy education, 
especially regarding renewable energy and efficiency, is an 
important mission for DOE overall and one to which CI can 
certainly contribute.
                                ------                                


    Responses of James L. Caswell to Questions from Senator Bingaman

    Question 1. Oil and Gas Inspection and Enforcement.--The 
previous BLM Director worked with me to add inspectors to the 
Farmington Field Office. Several have been added to that 
office. What steps do you plan to take to ensure that the oil 
and gas inspection and enforcement program will be strong 
during your tenure and into the future?
    Answer. Although I have not had the opportunity to 
thoroughly review the oil and gas inspection and enforcement 
program, I do appreciate the complexity of the issue. If 
confirmed, I will ensure that the inspection and enforcement 
program is robust, and that the BLM provides an appropriate 
level and appropriate timing of inspection and enforcement 
activities.
    Question 2. Split Estate.--In the past, many issues have 
arisen with respect to conflicts between surface uses and oil 
and gas development where split estates exist. New Mexico 
recently passed a law requiring oil and gas operators to work 
with surface owners and to post bonds. What steps will you take 
to ensure that conflicts between surface uses and oil and gas 
development will be minimized? Do you think an approach such as 
that of New Mexico should be adopted at the Federal level?
    Answer. I am a strong believer and committed practitioner 
in working together with all affected constituencies when 
trying to solve a problem. While I have not been briefed on all 
of the intricacies of split estate issues, you have my 
commitment that, if confirmed, I will be engaged on this issue.
    I am not familiar with the law in New Mexico addressing 
split estate issues, which was adopted just a few months ago, 
so I am not able to comment on the advisability of adopting a 
similar approach at the Federal level at this time. If 
confirmed, I will review this law, as well as the split estate 
report the Department of the Interior sent to Congress on this 
issue.
    Question 3a. Teshekpuk Lake.--Last summer, 18 Senators 
joined me in writing to Secretary Kempthorne to ask that the 
Department reconsider the decision to issue leases for oil and 
gas land in the vicinity of Teshekpuk Lake in the National 
Petroleum Reserve-Alaska. Secretary Watt withdrew this area due 
to its importance to wildlife. The lease sale was subsequently 
enjoined by a Federal court. I am advised that the Department 
is working on a supplemental EIS. I understand that recent 
scientific work indicates that warming climate trends may be 
impacting coastal erosion north of Teshekpuk Lake. Is BLM 
considering the impact of warming climate trends in its 
Supplemental EIS for the Northeast Planning Area or modifying 
its proposed actions to address these trends and minimize 
adverse impacts? If so, please specifically describe. If not, 
will you commit considering this new information before making 
any leasing decision?
    What is the current time line for the environmental 
analysis and the lease sale in the Northeast Planning Area?
    Answer. I understand that BLM considered the impact of 
warming climate trends in its original supplemental EIS for the 
Northeast Planning Area. BLM has recently started the analysis 
on a current draft revision and is nearing completion. If 
confirmed, I will more thoroughly review the pertinent 
information concerning the Northeast Planning Area.
    Question 3b. More generally, do I have your commitment that 
you will personally review the question of leasing in the 
vicinity of Teshekpuk Lake prior to any decision regarding a 
lease sale? Of the 3.8 million acres of the NPRA that are 
already under lease, how many wells are in production? Why is 
there not more production from the acreage already leased in 
the NPRA? Do you believe that Congress should revisit the rules 
relating to diligent development of leases in the NPRA?
    Answer. While I am generally familiar with the issue of 
leasing in the National Petroleum Reserve-Alaska, I have not 
had detailed briefings on the issue. If confirmed, you have my 
commitment to become well-versed on these issues and to ensure 
that any decisions during my tenure are balanced and based on 
all available relevant information.
    Question 4a. Oil Shale.--The Energy Policy Act of 2005 
contained provisions to promote the development of oil shale 
resources. BLM is moving forward with a research and 
development leasing program and a programmatic environmental 
analysis for commercial leasing. However, I believe that 
commercial leasing should not take place until the technology 
is proven. Industry informs us that this is several years away. 
What is the time line for conducting a commercial lease sale? 
Do I have your commitment that a commercial lease sale will not 
be conducted until the technology is proven? I understand that 
some states have requested additional time to comment on the 
environmental analysis. Will you provide additional time to the 
states? What is the timeline for conducting a commercial lease?
    Answer. I have been advised that commercial leasing will 
not occur prior to completion of the Oil Shale and Tar Sands 
Programmatic Environmental Impact Statement and Oil Shale 
regulations and consultation with affected States and local 
governments. The BLM currently estimates completing the PEIS in 
late 2008 and the regulations in mid-2009. Following this 
process, I am told that the earliest a lease sale could occur 
would be 2010.
    Question 4b. Do I have your commitment that a commercial 
lease sale will not be conducted until the technology is 
proven?
    Answer: If confirmed, you have my commitment that a 
commercial lease sale will not be conducted until the BLM has 
worked with the Governors of the affected states and complied 
with all of the other prerequisites to commercial leasing set 
forth in the Energy Policy Act of 2005.
    Question 5. Application of NEPA in Oil and Gas Leasing.--I 
have written to the Secretary expressing concern about BLM's 
implementation of section 390 of EPAct relating to NEPA review 
in the oil and gas leasing program. The provision has been 
implemented by BLM in a manner inconsistent with CEQ 
regulations. Will you personally review this matter and work 
with us to ensure that BLM's implementation is consistent with 
the CEQ regulations?
    Answer. While I am familiar with the use of categorical 
exclusions, I have not been briefed fully on this section of 
the Energy Policy Act. If confirmed, I will review this matter.
    Question 6. According to the BLM's Law Enforcement Year-End 
Review for FY 2005, there were more than 5,400 law enforcement 
incidents involving off road vehicles. And recently a group of 
former public lands officials, including the BLM, recently 
cited reckless off-road vehicle riding as the top threat to 
America's public lands. Under your direction what will the BLM 
do to address the damage to public land resources resulting 
from inappropriate off-road vehicle use?
    Answer. Coming from the West, I am familiar with the 
complex challenges in managing off-highway vehicles--especially 
when western populations and the use of off-highway vehicles 
are increasing at a corresponding rate. It has been my 
experience that, in general, managing off-highway vehicle 
travel through the designation of routes and trails, with 
appropriate enforcement strategies, is the best way to conserve 
natural resources. If confirmed, I intend to promote that 
approach towards managing motorized activities on the public 
lands, while fully involving the public and local communities 
in the decision-making process.
    Question 7. The Forest Service will complete travel 
management plans for all of its land by 2009. How soon would 
you have similar travel management planning efforts completed 
for BLM lands?
    Answer. I am not familiar with the BLM's current travel 
management planning activities nor its schedule. If confirmed, 
I look forward to working with you on this issue.
    Question 8. The Department's policy concerning R.S. 2477 
rights-of-way allows the BLM to make so-called ``non-binding 
determinations'' as to the validity of a highway claim. In 
actuality, these determinations appear to ``bind'' the agency 
by allowing counties to perform road maintenance and perhaps to 
open a closed route to motorized vehicle use. As Director, how 
will you work to clarify this discrepancy, so that land 
managers retain their authority to prevent highway maintenance 
or use, regardless of the determination?
    Answer. I have not had an opportunity to delve into the 
intricacies of the R.S. 2477 rights-of-way issues in great 
detail, but if confirmed, I will work to provide clarification 
if needed.
    Question 9. Generally, under the Norton policy, how does 
your agency plan to work with other agencies like the National 
Park Service, Fish and Wildlife Service, Department of Defense, 
and the Forest Service to address R.S. 2477 claims that cross 
agency boundaries?
    Answer. If confirmed, I will ensure that BLM coordinates 
with other agencies.
    Question 10. Will BLM process an application even if the 
Park Service or other agency objects? If other agencies 
disagree with the BLM's conclusions, will the BLM nonetheless 
make an affirmative non-binding determination?
    Answer. Again, I am not familiar with the intricacies of 
the R.S. 2477 in great detail, so it is difficult at this time 
to know what steps BLM would take under these scenarios. If 
confirmed, I will ensure our policies facilitate internal 
coordination on these matters.
    Question 11. Recently the committee reported legislation 
(S. 1139) which would codify the BLM's National Landscape 
Conservation System, which the Department supported. However, 
the BLM's budget to manage the national monuments, conservation 
areas and other environmentally significant areas that are 
included within the NLCS has failed to keep up with management 
needs. Likewise, the BLM's funding to protect these areas with 
Land and Water Conservation Fund dollars has also decreased, 
leaving many important areas unprotected. If confirmed will you 
work to ensure that the funding for BLM national monuments and 
Land and Water Conservation Fund is at a sufficient level to 
begin to address these unmet needs?
    Answer. I support the National Landscape Conservation 
System. If confirmed, be assured that I will work with the 
Department to further the management and conservation of NLCS 
lands. While I am not familiar with the specific funding levels 
and land acquisition needs of the NLCS, if confirmed, I look 
forward to working with you on this important issue.
    Question 12. Rio Puerco.--Please provide a breakdown of 
FY07 and planned FY08 funding for Rio Puerco Watershed 
Management and separately for the Rio Puerco Watershed 
Management Committee by category including resource protection 
and administrative costs. Since inception of the Rio Puerco 
Watershed Management Committee, in total, how much funding has 
been used for resource protection and restoration? How much 
additional funding would be required to fully restore the Rio 
Puerco watershed? Can you assure me that this will be a high 
priority for you in the agency's future funding requests?
    Answer. Since the inception of the Committee, BLM has 
informed me that the committee has obtained $3.9 million in 
Federal, State, and partnership funding for restoration 
projects. I am not aware of how much funding would be required 
to fully restore the Rio Puerco watershed. However, I 
understand that the future of the Rio Puerco watershed is a 
vitally important issue for New Mexico, and I appreciated 
having the opportunity to discuss this with you. I have been 
advised that the BLM has worked to leverage resources in order 
to bring more funds to the watershed. If confirmed as Director, 
I will support cooperative conservation efforts.
    Question 13. Otero Mesa.--It is my understanding from a 
letter sent to me by former Acting BLM Director James M. Hughes 
that deferment of oil and gas leasing on Otero Mesa is 
unnecessary because BLM has no plans to proceed with new leases 
within the time frame that the USGS Salt Basin Aquifer study 
should be completed. Does this continue to be the case? Can you 
assure me that BLM will notify the committee immediately if BLM 
begins consideration of offering leases or approving any 
development on Otero Mesa?
    Answer. I am advised that the BLM has no current plans to 
offer any new leases in the Otero Mesa area. Since the Resource 
Management Plan was approved, there has only been one lease 
offered. If confirmed, I assure you that we will notify the 
committee of any future leases or development on Otero Mesa.
    Question 14. Please provide the committee with any 
documents that BLM has produced or otherwise used which analyze 
the size, distribution, and vulnerability of the Salt Basin 
Aquifer. If no such documents are available, please describe 
what scientific information regarding the Salt Basin Aquifer 
has been reviewed or will be reviewed as the basis for BLM's 
drilling plan in Otero Mesa.
    Answer. With regard to your document request, I am not 
familiar with the documents BLM produced or used concerning the 
Salt Basin Aquifer. However, I have passed on your request to 
BLM staff, who are committed to meeting your request and will 
be contacting you for further clarification.
    Question 15. Prehistoric Trackways.--It is my understanding 
that due to recent reports of vandalism of archeological 
resources within the proposed boundary of the Prehistoric 
Trackways National Monument in Dona Ana County, New Mexico, BLM 
State Director Linda Rundell has reprogrammed some of her 
limited funds to place a full-time BLM law enforcement agent in 
the area. Will you commit to assisting New Mexico BLM find 
sufficient resources to protect these irreplaceable treasures 
now and into the future?
    Answer. I am pleased to hear that the New Mexico BLM has 
taken proactive steps to conserve the irreplaceable resources 
of this area. While I am not familiar with the needs in Dona 
Ana County, New Mexico, I am committed to learning more about 
them and conserving our special places. If confirmed, I will 
work to further that goal.

     Responses of James L. Caswell to Questions from Senator Wyden

    Question 16. County Payments.--County Payments provide 
critical funding in my home state of Oregon, and especially to 
Oregon's unique O&C lands. As incoming Director of BLM, can I 
get your assurance that you will work with me to ensure county 
payments funding is found? Will you advocate for the necessity 
of this program?
    Answer. I am aware of the many benefits my home state of 
Idaho has received from the Secure Rural Schools Act, and, 
having previously worked in Oregon, I understand the importance 
of the Act to western Oregon counties. If confirmed, I look 
forward to working with you on this very important issue.
    Question 17. State and Local Fire Assistance/County 
Payments.--The 2008 budget continues a downward trend in 
funding for community fire protection programs. Programs such 
as State and Volunteer Fire Assistance are critical in helping 
communities prepare for wildland fire--through firefighter 
training, hazardous fuels reduction on non-federal lands and 
Community Wildfire Protection Planning. Likewise, programs such 
as county payments have provided counties in my home state 
funds to help build up their firefighting capacity or do 
projects to protect their communities by reducing fuel loads in 
the forest. These proactive steps are also key in preparing for 
the fire season and reducing federal suppression costs. 
However, these programs continue to struggle to obtain funding. 
How will the BLM help ensure that at-risk communities are 
adequately prepared for the inevitable wildland fire when 
community assistance programs are underfunded and funding for 
them continues to decline?
    Answer. This is an issue of great interest to me and, in 
the past, I have worked with the Western Governors' Association 
on these matters. If confirmed, I will make it a priority to 
learn more about BLM's technical assistance and funding plans 
for Community Wildland Fire Protection Plans.
    Question 18. Thinning/Forest Health.--Years after the 
passage of the Healthy Forests Restoration Act, we still see 
dangerously overstocked forests in the West, and, as a result, 
increasingly severe fires with the accompanying out of control 
costs. We have also seen a number of the reports discussing the 
skyrocketing wildfire costs have noted how essential it is to 
vastly expand the agencies' fuels reduction efforts. A Report 
by the Brookings Institution's Independent Large Wildfire Cost 
Panel in discussing hazardous fuels reduction found that ``all 
forests interviewed were failing to meet their goals'' citing a 
range of reasons including increasing costs of a fuels 
reduction over funding available. It goes on to find ``even 
those forests with aggressive fuels programs were essentially 
treating between five to ten percent of the total forest 
acreage.'' At that pace, we have little hope of getting ahead 
of the problem. Big chunks of the West are burning at this very 
moment, and feeding the skyrocketing fire-fighting costs, yet 
the Administration continues to drag its feet on completing the 
critical thinning that needs to be performed to prevent fire in 
our Nation's forests. It seems to me, this is the best form of 
preparation for the fire season, I keep hearing from folks on 
the ground who don't understand why we don't make the 
comparatively smaller commitment upfront to avoid the hazardous 
conditions that lead to these out-of-control fires. Isn't some 
of the skyrocketing cost of fire suppression the result of 
inadequate fuel reduction budgets? Isn't this a case of if you 
don't pay to prevent fires, you'll end up paying more later to 
fight them? How do you justify this policy? Why do you think we 
aren't able to make more of that upfront commitment to treat 
our forests--at a pace that actually stands a chance to make a 
difference? What will you do to ensure that happens and make 
thinning more of a priority?
    Answer. While I am not familiar with the BLM's fuels 
budget, I do support an aggressive fuels treatment program. I 
agree that fuels treatments can, in many cases, lower 
firefighting costs. If confirmed, I will look into the status 
of the program to find creative solutions to improving BLM's 
accomplishments within available resources.
    I believe the land management agencies in cooperation with 
state and local governments are committed to treating our 
Nation's hazardous fuels. Great strides have been achieved 
since passage of the Healthy Forests Restoration Act. This is a 
very complicated issue with a huge backlog of acres in need of 
treatment. If confirmed, forest and rangeland health, wildland 
fire costs, and hazardous fuels will be some of my priorities. 
I look forward to working with the Congress on this critical 
issue.
    Question 19. BLM no longer obeys its multiple-use 
mandate.--BLM is facing an explosion in demand for natural gas 
drilling on public land in Western states. Applications for 
Permits to Drill more than tripled in just five years, up to 
6,400 in 2004, and that's going to double before too long. All 
of this drilling puts an incredible strain on the other 
purposes for BLM land under the multiple-use mandate, such as 
natural resource conservation, recreation and grazing. Critics 
including the Government Accountability Office, state 
officials, local residents and BLM staffers warn that BLM is so 
busy processing APDs that it no longer has time for any other 
duty, such as sending staff biologists into the field. The 
damage to Western habitat threatens to put animals like the 
Sage Grouse on the Endangered Species List, which would cripple 
gas drilling much like the Northern Spotted Owl's endangered 
status has crippled timber harvesting in the Pacific Northwest. 
Do you agree with the critics outside and inside BLM who say it 
no longer obeys its multiple-use mandate? Specifically, what 
would you do to restore the balance? Would you reverse the 
steady flow of Information Memos from Washington to state field 
offices that have placed processing APDs above all other 
duties, demanding a quick turnaround time and limiting Best 
Management Practices, which would mitigate environmental 
damage, to the status of ``voluntary recommendations?'' What 
additional should Congress provide BLM either financially or as 
statutory authority to cope with the unprecedented gas drilling 
on Western lands? While the new Healthy Lands Initiative 
announced in this year's budget request would attempt to repair 
drilling damage done to some BLM lands, wouldn't it be wiser 
for BLM to establish more territory as a no-drilling zone 
before the damage was done?
    Answer. I am a firm believer in the multiple-use mission of 
the BLM. The very nature of the multiple-use mandate means that 
we must balance the conservation of our Federal lands with the 
environmentally-sound development of our Nation's energy 
resources underlying these lands. I believe that, in many 
instances, it is possible to achieve this balance. If 
confirmed, I will work with Congress to address wildlife 
habitat management, environmental Best Management Practices, 
restoration of damaged lands, and inspection and enforcement of 
oil and gas development activities.
    Question 20a. Attitudes on protecting natural resources.--
Over the years, while supervising national forests and state 
policy on endangered species, you sometimes showed impatience 
with environmental law and with environmentalists' demands to 
preserve natural resources. In a 2002 letter to the National 
Environmental Policy Act Task Force, on behalf of the state of 
Idaho, you complained about ``regulatory obstacles involv(ing) 
NEPA'' that ``we believe. . . partly reflect shortcomings in 
NEPA, a decision-making policy that precludes timely decision-
making, and partly reflect abuses of NEPA, interest groups 
whose interests are served by gridlock.'' Can you identify 
which ``interest groups'' you think are ``served by gridlock'' 
and tell me what you think their interests are? Or do you now 
disavow that 2002 statement?
    Answer. In my view decision making ``gridlock'' can, at 
times, serve many organizations across the political spectrum. 
Any organization or individual that believes its interests are 
not served by a specific decision or program can use the law or 
regulations to address its grievances before their government. 
One of the objectives of NEPA was to level the playing field, 
and it has been successful in this regard. However, this 
opportunity can be abused. If confirmed, I will work to 
implement NEPA within the BLM as Congress intended.
    Question 20b. Can you see legitimate reasons for citizens 
sometimes to oppose development on public lands?
    Answer. Absolutely, yes.
    Question 20c. If you're a critic of NEPA, how you would 
change it?
    Answer. I believe in the NEPA process and that it has made 
Federal agencies more accountable to the public, improved 
decision-making, increased environmental protection, and 
improved public trust. If confirmed, I will implement the BLM's 
NEPA program to the letter of the law, regulation, and policy.
    Question 20d. And given that it's your current area of 
expertise in Idaho, how would you change the Endangered Species 
Act?
    Answer. I do not believe a statutory change to the ESA is 
possible nor is it necessary at this time. I do believe however 
there are administrative and procedural changes that if 
implemented and institutionalized would improve the 
effectiveness and efficiency of the ESA to emphasize the 
recovery of listed species. If confirmed, I will implement ESA 
procedures in all BLM decisions where required.
    Question 21. National Landscape Conservation System and 
Steens Management.--You have been supportive of the BLM's 
National Landscape Conservation System, protecting some of the 
BLM's crown jewels--however, you have heard some concerns about 
how the act codifying this system would impact the management 
of the Steens. You want a confirmation from the BLM that the 
Steens Act will still govern management of the Steens Area, 
consistent with the language in the legislation. Can you 
confirm that the Steens Act will still govern management of the 
Steens Area, consistent with the language in the legislation 
codifying the National Landscape Conservation System? What are 
your thoughts on the National Landscape Conservation System and 
what benefits can it bring to the BLM?
    Answer. It is my understanding that the intent of the bill 
is not to alter the management of the units of the NLCS, but 
that the Department has identified some areas of ambiguity in 
the language of the bill. If confirmed, I look forward to 
working with the BLM, partners and Congress to clarify the bill 
while continuing BLM's support of the NLCS.
    Question 22. Protecting Cultural Resources on BLM Lands.--
Working with partners and governments including tribal 
governments should be a priority for the BLM and other land 
management agencies. In a recent court case out of the l0th 
Circuit in New Mexico, the court found the Forest Service did 
not make a ``reasonable and good faith effort'' to identify 
historic properties and, therefore, could not make a proper 
determination as to whether the area--where it wanted to 
conduct road development--contained traditional cultural 
properties. The Pueblo of Sandia alleged that the United States 
Forest Service failed to comply with the National Historic 
Preservation Act (NHPA) when the Forest Service approved a road 
project and related improvements in the Las Huertas Canyon in 
the Cibola National Forest without first evaluating the canyon 
as a traditional cultural property eligible for inclusion in 
the National Register of Historic Places.
    Can you assure the Committee that under your direction, the 
BLM will not make the same mistake especially during travel 
planning? Can you assure us that the agency will conduct 
archeological site inventories and consultation with tribes 
before determining whether motorized recreational activities 
and road development should occur in an area?
    Answer. I am not familiar with the details of BLM's current 
travel management planning. However, I am told that BLM has 
developed clear guidance for consulting with Tribes, including 
evaluating traditional cultural properties. If confirmed, I am 
committed to carrying out that guidance.
    Question 23. Travel Management on BLM Lands.--Immediately 
after the April 11, 2003 agreement between DOI and the State of 
Utah precluding BLM's consideration of additional wilderness 
study area designations, Secretary Norton assured the Committee 
that BLM would use other tools to protect wilderness quality 
lands. 
(http://www.blm.gov/nhp/efoia/wo/fy03/im2003-275chl.htm). 
Meanwhile, BLM's Draft Travel Plans/ORV Route Designation Plans 
released for public review in eastern Utah propose ORV routes 
in these lands BLM itself has determined to have wilderness 
character. What specifically is the BLM doing to protect the 
wilderness character of BLM lands during the development of 
these Travel Management Plans? Doesn't designating thousands of 
miles of vehicle routes destroy the wilderness-quality of these 
roadless areas?
    Answer. I have not been briefed in detail regarding the 
settlement agreement between the Department of the Interior and 
the State of Utah regarding wilderness authorities and the 
issues pertinent to it. If confirmed, I will review this issue, 
taking into consideration your concerns.

    Responses of James L. Caswell to Questions from Senator Salazar

    Question 24. Readiness for Position.--You have had a 
distinguished career in the U.S. Forest Service having served 
as the forest supervisor, deputy forest supervisor, and acting 
deputy of regional foresters. Can you describe what 
professional experiences you have had that prepared you to 
manage the Bureau of Land Management's annual budget of about 
$1.2 billion and almost 8,000 employees?
    Answer. I have consistently led people and organizations 
for over 40 years to achieve exceptional results during 
difficult times. As a leader and a manager, I have experience 
with small groups and teams as well as large complex 
organizations of hundreds of employees. I have served in a 
regional capacity in the Forest Service and, if confirmed, will 
bring this perspective to a national leadership position. I 
believe I understand the art of motivating people to perform at 
their best while ensuring that that they are accountable to 
those they serve. I remain a student of leadership and 
management theory, and you can rest assured that if confirmed I 
will work tirelessly to make the BLM one of the most respected, 
responsive, and competent agencies in government.
    Question 25. Energy Development on Public Lands.--You were 
quoted in the Associated Press on June 2, 2007, as saying ``We 
just have to develop the resources that we have. You can't just 
write this stuff off. It's a terribly important activity for 
the good of the country.'' While I believe securing America's 
energy independence is critical for our Nation, and I support 
efforts to develop Colorado's energy resources, I am concerned 
about the Administration's rush to lease as much acreage as 
possible for oil and gas exploration and development. It is 
this rush to lease that leads me to believe that there is a 
fundamental problem with how the BLM is doing business in 
Colorado and the West. There has been rapid growth in energy 
production occurring on BLM lands. In northwest Colorado alone, 
there are currently, 4,000 to 5,000 drills extracting oil and 
gas. Over the next 15 years, Federal leases already have been 
sold that will expand the number of drills to 60,000. I am 
concerned that the Administration is making oil and gas 
exploration and development the number one priority on all BLM 
land, over all other uses, and that this will permanently and 
irrevocably affect the natural heritage of the Rocky Mountain 
West. I am also concerned that the priority to extract our 
domestic oil and gas resources on public lands may come at the 
expense of energy conservation and the development of 
renewable, clean energies.
    Can you describe the considerations you think are important 
in balancing the protection of our Federal lands with the 
development of our Nation's energy resources underlying these 
Federal lands? Will you commit to work with local communities 
and to listen to their legitimate concerns regarding the 
primacy of energy development over other uses of public lands?
    Answer. I believe a balance can only be achieved with 
proper analysis, documentation, and disclosure of the 
environmental, social, and economic information and data that 
is germane to the decision being made. Further, this analysis 
must be completed at the appropriate scale and must be in 
collaboration with the community of interest. I have always 
been a strong practitioner of listening to those impacted by 
Federal land management policies. If confirmed, you have my 
commitment to place the proper emphasis on working with and 
listening to local communities.
    Question 26. You were also quoted in the Associated Press 
as saying ``But I also don't believe that every tree ought to 
go to the mill. So much of it becomes site specific. But if the 
objective is to develop a resource, most of the time I think we 
can find a way to solve the problems surrounding it.'' Can you 
describe the circumstances or problems that you believe would 
lead to a decision to protect a Federal resource rather than 
develop it?
    Answer. Over the course of my career I have made hundreds 
of decisions that resulted in the protection of Federal lands 
and resources. Some of these decisions have been large like the 
management plan for the Lewis and Clark Trail covering 
thousands of acres while others have been smaller in scale like 
protection of riparian habitat on a specific stream. If 
confirmed, I will support policies and provide direction that 
strives to balance the various uses BLM is charged with 
providing to the American people.
    Question 27. In recent years, there has been a rapid growth 
in energy production occurring on BLM lands. While BLM has 
increased the budget for inspection and monitoring of this 
energy production, I do not believe the increase in the budget 
is commensurate with the increase in energy production. If you 
are confirmed to be director of the BLM, can you describe what 
efforts you will take to ensure there is adequate inspection 
and monitoring of the energy production occurring on BLM lands? 
Can you also tell me whether you would consider unannounced 
visits to drilling pads as one method of strengthening 
inspection and monitoring?
    Answer. It is my understanding that the BLM does not 
typically announce inspection and enforcement visits, and I 
support this practice. I will review the inspection and 
enforcement budget, if confirmed.
    Question 28. Roan Plateau.--Current BLM oil and gas leasing 
and development policies have resulted in the BLM opening to 
leasing millions of acres of sensitive lands, including lands 
that many members of Congress have proposed for wilderness, or 
that have previously been protected for their wildlife or 
cultural values. In Colorado, the Roan Plateau is an example of 
one of those special places. Tens of thousands of acres of 
public lands administered by the BLM are prime wildlife habitat 
for elk and mule deer, home to rare species of plants and 
animals, and a refuge for Colorado citizens who seek solitude 
and renewal through hiking, hunting, fishing and camping. I 
have publicly stated that the Roan Plateau is a unique resource 
that should be preserved for future generations. In November 
2004, the BLM's draft environmental impact statement of the 
results of leasing Federal lands on the Roan Plateau for oil 
and gas exploration and development studied four alternatives 
for energy development, in addition to a no action alternative. 
The public submitted 74,000 comments in response to the draft 
EIS, overwhelmingly opposed to the leasing of these lands. BLM 
has issued a Resource Management Plan that will pursue a 
leasing program fundamentally different from the four 
alternatives included in the draft EIS. Governor Ritter has 
requested, and I strongly support his request, for a 120-day 
extension to review the Resource Management Plan. We must 
ensure that the Roan Plateau Resource Management Plan does not 
rush to develop this natural gas resource, and that it ensures 
the protection of elk and mule deer habitats, the protection of 
recreational resources, and the protection of the Roan's unique 
features that make it a popular destination site.
    Do you agree that Governor Ritter's request for a 120-day 
extension should be granted? Can you commit that BLM will work 
with the State of Colorado to ensure the Roan Plateau Resource 
Management Plan ensures the protection of wildlife habitat, and 
the protection of this unique resource?
    Answer. I have not been fully briefed on this matter nor 
the decisions made. Over the last forty years, I have worked 
with local and State governments, including working directly 
for three governors over the past 6 years. I can commit that I 
will work with the State of Colorado and the counties on this 
and other matters within your state.
    Question 29. An important section of the Energy Policy Act 
of 2005 (section 369) deals with the potential development of 
oil shale in the western United States. A bipartisan effort 
laid out a deliberate, thoughtful process for the potential 
development of oil shale in Colorado, Utah and Wyoming. We are 
pleased with the BLM's diligence in issuing the research and 
development leases.
    Will you commit to adhering to the deliberate and 
thoughtful process that Congress set forth in the Energy Policy 
Act of 2005 regarding oil shale development in the West-
including the completion of the programmatic Environmental 
Impact Statement as required by Section 369(d) of the Energy 
Policy Act prior to moving forward with a commercial leasing 
program? Will you agree to work with the State and affected 
local communities in a way that considers their input, 
experience, and concerns with potential oil shale development?
    Answer. Although I have yet to be briefed in detail about 
the implementation of the oil shale program under the Energy 
Policy Act of 2005 (EPAct), my general understanding is that 
the process you outline in your question is how the process is 
designed in the recently enacted law. If I am confirmed, you 
have my commitment that implementation will be consistent with 
the statute and that state and local communities will be 
integral participants in the process.
    Question 30. Federal Land Sales to Offset Federal 
Deficit.--Secretary Kempthorne and I are on record discussing 
the sale of Federal lands, and the use of the proceeds to 
reduce the Federal deficit. If you are confirmed as Director of 
BLM, what guarantees do we have that the sales of Federal lands 
will be in the best interest of protecting our country's 
natural resources, and that sales of valuable lands won't be 
accelerated in an effort to reduce the Federal deficit?
    Answer. I know that Secretary Kempthorne has indicated that 
he would oppose proposals that advocated the sale of lands 
strictly for deficit reduction. At the same time, he indicated 
that there are instances when it makes sense to dispose of 
public lands and would not want to preclude those instances. I 
support Secretary Kempthorne's position.
    Question 31. National Landscape Conservation System.--In 
2005, The National Trust for Historic Preservation listed the 
BLM's National Landscape Conservation System as one of 
America's eleven ``most endangered historic places.'' Yet, the 
BLM continues to provide an average of only one ranger for 
every 200,000 acres within the System, which contains thousands 
of important cultural resources reflecting our national 
heritage that are being irreparably looted and vandalized. As 
one example, the Conservation System's Canyons of the Ancients 
National Monument contains the largest known concentration of 
archaeological sites in the nation, yet the BLM does not have 
the staff to adequately protect these resources. There are not 
even full-time rangers in places such as Las Cienegas National 
Conservation Area and the Sonoran Desert National Monument. 
Will you work with the Department of Interior to ensure that 
these outstanding landscapes, and the vast cultural and natural 
resources within them, are more adequately protected?
    Answer. I support the National Landscape Conservation 
System. If confirmed, be assured that I will work with the 
Department to continue to manage and conserve NLCS lands. It is 
my understanding that public visitation to NLCS units is 
growing and issues such as those you pointed out must be 
addressed.
    Question 32. The National Landscape Conservation System 
Act, S. 1139, was introduced in May to congressionally 
authorize this extraordinary system of BLM lands. These 
landscapes are the crown jewels of BLM lands and waters that 
have been congressionally and presidentially designated for 
conservation, including their National Monuments, National 
Conservation Areas, and Wild and Scenic Rivers. The bill is 
straightforward legislation that would codify this unique 
System that was administratively designated in 2000. We were 
pleased that Acting Director Jim Hughes testified in support of 
the bill at a legislative hearing before this committee on May 
3. The bill will highlight the importance of these landscapes 
to the American public and the Department of Interior. Will you 
also support this historic legislation?
    Answer. I support the National Landscape Conservation 
System. If confirmed, be assured that I will work with the 
Department to continue to manage and conserve NLCS lands. It is 
my understanding that the intent of the legislation is not to 
alter the management direction for the units of the NLCS, but 
to codify the existing system. I look forward to working with 
the BLM, partners and Congress to continue to support it.
    Question 33. Unfortunately the BLM has chosen not to 
provide detailed budgets for the NLCS in recent years. 
Transparency and accountability are vitally important to BLM's 
credibility. We're told by BLM staff that the President's 
budget is not a true depiction of how NLCS funds are spent. 
Indeed, the BLM doesn't even track NLCS funding. The Senate 
Appropriations Committee recently directed BLM to provide a 
budget table that includes major subactivity allocations for 
each unit of the NLCS, and inclusion of such budget tables in 
future budget justifications. The committee further directed 
BLM to produce a NLCS expenditure and outcomes report which 
breaks out expenditures by NLCS unit and subactivity.
    Should you be confirmed by the Senate, will you make 
increasing the transparency and accountability of the NLCS a 
high priority? Will you commit to ensuring that these budget 
tables and expenditure reports are completed in a timely manner 
and reported to Congress and the public?
    Answer. If confirmed, I will make sure that we provide 
transparency to the budget for the National Landscape 
Conservation System and that we are responsive to the requests 
of Congress. I also will ensure the public and Congress have a 
complete picture of all BLM's programs.

   Responses of James L. Caswell to Questions from Senator Murkowski

    Question 34. The Bureau of Land Management controls more 
acres in the State of Alaska than it does in any other State. 
How acquainted are you with the key issues facing the BLM in 
administering these lands? Given that you have not worked on 
Alaska issues in the course of your 30 year career with the 
Federal government, what will you do to get up to speed on the 
Bureau's responsibilities with respect to Alaska lands if 
confirmed to head the BLM?
    Answer. Having lived in Alaska for a period of time, I can 
appreciate the importance of the BLM's role in Alaska and the 
significant number and magnitude of the resource management 
issues that Alaska faces. If confirmed, I will be briefed on 
BLM programs and issues, with significant time focused on 
Alaska. Further, I intend to meet with all the State Directors, 
including the Alaska State Director, to better understand the 
issues they face in their respective states. In addition, I 
will make it a priority to again visit the great State of 
Alaska as quickly as possible, if confirmed.
    Question 35. The Alaska National Interest Lands 
Conservation Act requires that employees of Federal land 
management agencies who are assigned to posts in Alaska sit for 
a class on the requirements of that act and the Alaska Native 
Claims Settlement Act. If you are confirmed to direct the BLM 
will you sit for the class?
    Answer. Yes, at the first opportunity.
    Question 36a. The availability of fire aviation assets has 
been a persistent problem for the State of Alaska. Alaska is 
slated to lose dedicated fire aviation assets in 2008 (water 
scooper tankers, utility aircraft). I understand that this is 
budget driven. Are you concerned that the fire preparedness 
budget is being cut too deeply to provide the fire protection 
that communities adjacent to public lands deserve?
    Answer. Fire management is of great concern and interest to 
me, including aviation assets. On behalf of then-Governor 
Kempthorne, I worked with Western Governors' Association on 
these matters with the Federal agencies. If confirmed, you can 
be assured I will look into this specific matter.
    Question 36b. Our Nation is still relying on a limited 
supply of fire retardant tankers that have been deemed safe to 
fly. Would it be one of your priorities to lead our Nation into 
production of the next generation of fire retardant tankers 
during your watch or will we continue to rely on a fleet being 
held together with scotch tape and paper clips?
    Answer. I am advised that the interagency fire community, 
which includes the BLM, is working to determine the most 
effective mix of types and numbers of aircraft necessary to 
meet Federal fire response needs well into the future. If 
confirmed as Director, I will be glad to work with you to 
ensure this important effort is implemented.
    Question 37. The State of Alaska contracts with a Canadian 
firm for retardant tankers that the Canadian government says 
are safe to fly but the US Federal land management agencies say 
are not safe enough to fight fires in the Federal protection 
zone. The State has been flying these tankers for some four 
years in the State protection zone without incident. If you are 
confirmed, would you confer with the Canadian aviation 
regulators and determine whether the Federal land management 
agencies have taken an unduly restrictive posture--a posture 
that in my view threatens life and property in the State of 
Alaska.
    Answer. I am advised that the BLM has a long and productive 
relationship with the Canadian fire community. If confirmed, I 
would be glad to learn more about the Canadian government's 
aviation policies and explore areas of mutual interest. I 
understand that all firefighting aircraft must meet Federal 
aviation certification requirements, which are designed to 
protect pilots, firefighters and the public. As a result of 
firefighting aircraft accidents several years ago, certificate 
requirements have been heightened. It is my understanding that 
specific Canadian aircraft, contracted by the State of Alaska, 
can be used on Federal lands when life or property is 
threatened.
    Question 38. On May 3, the Public Lands and Forests 
Subcommittee took testimony on legislation to establish the 
National Landscape Conservation System and the BLM testified in 
favor of the legislation. I submitted questions for the record 
following the hearing. I don't believe that those questions 
have been answered. Would you check and see where those answers 
might be and whether I can expect them in the near future?
    Answer. I am not familiar with the questions you have sent, 
but the Department has indicated that it will send those 
answers to Congress this week.

    Responses of James L. Caswell to Questions from Senator Domenici

    Question 39. Mr. Caswell, as you have been made aware at 
your hearing, Senator Bingaman and I, as well as other 
Senators, are extremely frustrated over BLM's failure to 
resolve the situation with respect to dual development of both 
potash and oil and gas in the Known Potash Leasing Area in 
Southeast New Mexico. We recently requested a meeting with 
Secretary Kempthorne to discuss the issues surrounding this 
problem and to ascertain when the Department expects to 
announce a plan for resolving these issues. Will you commit to 
me that you will make this your highest priority if you are 
confirmed?
    Answer. Although I am not yet familiar with the intricacies 
of the conflict between potash and oil and gas development in 
the Known Potash Leasing Area in Southeast New Mexico, you have 
my commitment that I will learn all that I can about the issue, 
and that I will make it a high priority if I am confirmed.
    Question 40. All of your professional experience has been 
with Forest Service, and you have an excellent record in land 
management. While that will serve you well at BLM if you are 
confirmed, as evidenced by your testimony, BLM's multiple-use 
mission is different in some respects from the Forest Service. 
How do you intend to promote the energy production side of the 
BLM mission?
    Answer. If confirmed, you have my full commitment to 
continue the progress that has been made in implementing the 
Energy Policy Act of 2005. As I stated during my confirmation 
hearing, I fully embrace the multiple-use mission of BLM as 
mandated by FLPMA. I recognize the need for increased domestic 
production on Federal lands and, if confirmed, I will work 
tirelessly to seek an appropriate balance in that regard.

    Responses of James L. Caswell to Questions from Senator Cantwell

    Question 41. Proposed Mine Near Mt. St. Helens.--On April 
18, I sent a letter to Acting Bureau of Land Management (BLM) 
Director Jim Hughes regarding the BLM's recent announcement of 
a hardrock minerals lease in the ``Margaret Deposit'' area near 
Mount St. Helens. I am concerned that the BLM's Environmental 
Assessment did not adequately address potential environmental 
impacts. Mr. Hughes states in his response to my letter that 
``implementation of the preferred alternative would not result 
in authorization of on-the-ground activities or disturbances, 
thus, at this point in time, there are no impacts to analyze 
for this action.'' Yet, without a hardrock minerals lease, no 
mining company could conduct mining activities that post 
serious environmental consequences.
    Do you agree with the position that ``there are no impacts 
to analyze for this action''?
    Do you believe an Environmental Assessment should 
accurately evaluate all potential environmental impacts that 
could result from a mining lease?
    Answer. I have very limited knowledge about this issue. I 
am advised that no decision regarding the lease application has 
been made. However, I am aware of its importance to you and, if 
I am confirmed, you have my commitment that I will review this 
issue and be fully briefed on the concerns you raise.
    Question 42. In response to my April 18 letter, Mr. Hughes 
stated that, ``The U.S. Forest Service consent letter indicated 
 . . . that issuance of a . . . lease . . . is compatible with 
both the purposes of the acquisition, and the Forest Plan.'' It 
is my understanding that the BLM can only issue a lease for 
acquired land if it is compatible with the purposes for which 
the government obtained the land. The land in question was 
purchased by the government from the Trust for Public Land 
under the authority of the Weeks Act. Land acquisition under 
the Weeks Act is for limited purposes. Specifically, only lands 
``necessary to the regulation of the flow of navigable streams 
or for the production of timber'' are to be recommended for 
purchase. Such acquisition is authorized only if it ``will 
promote or protect the navigation of streams on whose 
watersheds they lie.'' Furthermore, the Gifford Pinchot 
National Forest Supervisor sent a letter to the Congressional 
Delegation in February 1986 stating that the Federal 
government's acquisition of this property ``will aid in the 
preservation of the integrity of the Green River prior to its 
entering the National Volcanic Monument, and will also aid in 
the preservation of the scenic beauty of this area which is to 
become an important Monument portal.''
    Please explain how is leasing this land to a mining company 
compatible with the ``preservation of the integrity of the 
Green River'' or ``aid[s] in the preservation of the scenic 
beauty of this area.''
    Answer. I have not been fully briefed on this issue. I am 
advised that no decision regarding the lease application has 
been made. However, I am aware of its importance to you and, if 
confirmed, I will review this issue and the concerns you raise 
in your question.
    Question 43. In response to my April 18 letter, Mr. Hughes 
stated that ``With regard to questions related to public 
interest . . . the preferred alternative would be responsive to 
the request from a legitimate applicant with . . . property 
rights.'' The same paragraph concludes ``ultimately, the 
issuance of a lease . . . is fully discretionary to the 
Government.'' Before issuing a lease for the acquired lands, 
the BLM must determine whether doing so is in the public 
interest. The Department of the Interior has stated in Federal 
Regulations that ``We intend for the phrase `in the public 
interest' to imply a consideration of the potential 
environmental costs of mineral development. It is our duty to 
balance the potential benefits of mineral development against 
the potential environmental consequences of that development 
when we decide that the approval of an application is in the 
public interest.'' There are a number of issues that, at a 
minimum, must be considered in determining whether leasing is 
in the public interest. These include, but are not limited to, 
scenic values, biological values, archeological, historic and 
cultural values, recreational uses, among others. Despite over 
20,000 comments received during the public comment period 
opposing the granting of the lease and the potential for 
significant environmental, human health and recreation impacts 
associated with mine development in Mount St. Helen's Green 
River valley, the BLM determined this project could be in the 
pubic interest.
    Do you agree with this assessment?
    In this case, do you believe that BLM balanced the 
potential benefits of mineral development against the potential 
environmental consequences of that development?
    In this case, do you believe that BLM fully assessed 
potential impacts on public health, the environment and these 
other values in determining whether issuing a lease is in the 
public interest?
    Answer. I have not been briefed on this issue and 
therefore, my knowledge about this issue is very limited. I am 
advised that no decision regarding the lease application has 
been made. However, I am aware of its importance to you and, if 
confirmed, you have my commitment that I will thoroughly review 
this issue and the questions you raise.
    Question 44. In response to my April 18 letter, Mr. Hughes 
stated that ``the BLM and U.S. Forest Service are committed to 
ensuring that all laws and processes regulating mining on 
public lands are followed.'' Yet, BLM made no effort in the 
Environmental Assessment to determine whether modern mine 
development in the Green River valley is capable of complying 
with all laws regulating mining and protecting the environment.
    How will you remedy this issue?
    Answer. I have not been briefed on this issue and 
therefore, my knowledge about this issue is very limited. I am 
advised that no decision regarding the lease application has 
been made. However, I am aware of its importance to you and, if 
I am confirmed, you have my commitment that I will thoroughly 
review this issue and the concerns you raise in your question.
    Question 45. According to the Interior Board of Land 
Appeals (IBLA): ``The BLM has a statutory responsibility under 
NEPA to analyze and document the direct, indirect and 
cumulative impacts of past, present and reasonably foreseeable 
future actions resulting from federally authorized fluid 
minerals activities. By law, these impacts must be analyzed 
before the agency makes an irreversible commitment. In the 
fluid minerals program, this commitment occurs at the point of 
lease issuance.''
    As Director of BLM, will you commit to ensuring that BLM 
does not ignore this directive from the IBLA by conducting a 
full impacts analysis in consideration of all hardrock mineral 
leases?
    Given that the same NEPA requirements would apply, do you 
agree that the same standard of analysis should apply for 
hardrock mineral leasing as applies to fluid mineral leasing?
    If no, please explain why in detail.
    Answer. I have not been briefed on this issue and 
therefore, my knowledge about this issue is very limited. 
However, you have my commitment to comply fully with NEPA and 
any IBLA rulings interpreting NEPA, as applied to the BLM's 
Land Use Planning process and leasing decisions regarding fluid 
minerals and leaseable solid minerals.
    Question 46. On May 10, 2007, the 135th birthday of the 
1872 Mining Law, House Natural Resources Committee Chairman 
Nick Rahall, introduced a comprehensive mining reform bill, 
H.R. 2262, the Hardrock Mining and Reclamation Act of 2007. I 
am very concerned about the environmental impacts of mining in 
my state. In Washington state, new mine proposals are under 
review, and the state has a legacy of pollution problems and 
safety hazards from abandoned hardrock mines. According to a 
report by the Environmental Working Group, there are 51,000 
acres of existing mining claims on Washington's public land 
which could be immediately sold for private development. The 
1872 Mining Law has long been interpreted as mandating hardrock 
mining as the ``highest and best'' use of public lands. I hear 
from my constituents that the BLM takes the position that it 
cannot deny mining on Federal lands, even if there are 
significant impacts on important water resources, recreation 
areas, or fish and wildlife.
    How should BLM determine the appropriate use of Federal 
lands when conflicts in environmental impacts exist, such as 
mining activities proposed in a municipality's drinking water 
supply watershed?
    Answer. I believe the BLM should use the provisions of the 
Federal Land Policy Management Act and other applicable laws, 
including the land use planning process, to determine whether 
lands should remain open to location and mining under the 1872 
Mining Law. I am informed that if lands are open to location 
under the Mining Law, BLM regulations are designed to minimize 
environmental conflicts by preventing unnecessary or undue 
degradation of the public lands. I also have been told that BLM 
reclamation and operations regulations require proposed mining 
operations to comply with applicable Federal and State water 
quality laws (including the Federal Safe Drinking Water Act and 
the Clean Water Act), and to take reasonable measures to 
prevent or control on-site and off-site damage from hard rock 
mining operations.
    When do you think conflicts between mining and other uses 
of the land are so significant that mining should be denied?
    Answer. The land use planning process is the appropriate 
means to determine whether conflicts with other uses of the 
public lands are so significant as to preclude mining and close 
the lands involved to the operation of the Mining Law. If lands 
remain open to mining under the Mining Law, however, then my 
understanding of current law is that where conflicts with other 
uses exist, mining should be denied when the mining operations 
would cause unnecessary or undue degradation of the public 
lands.
    What is BLM's position on H.R. 2262?
    Answer. I am told that the Administration does not yet have 
a position.
    How will BLM work with Congress to implement needed reform 
to the 1872 Mining Law?
    Answer. I am well aware of the importance of this issue to 
Congress, the BLM, the states, industry, and the environmental 
community, and if confirmed, you have my commitment to work 
with you and stakeholders and interested parties on this issue.
    Question 47. As you know, the 1872 Mining Law was enacted 
135 years ago with the intent to help settle the west. Although 
times and values have changed, it continues to allow for the 
patenting, or outright sale, of Federal public lands. A 
moratorium against new patents has been put in place by 
Congress since 1994 as part of the appropriations bills, but we 
have to come back year after year to stop the sale of public 
lands.
    Would you support a permanent solution to this dilemma by 
placing a statutory end to patenting?
    Answer: I am not familiar enough with the intricacies of 
the patenting system to comment on this issue at this time. 
However, I am well aware of the importance of mining law 
reform. If confirmed, I will work with you, the stakeholders, 
and interested parties on this issue.
    Question 48. As I'm sure you know, in her days as Secretary 
of the Interior, Gale Norton developed a new process for 
reviewing and recognizing right-of-way claims for highways on 
Federal lands across the West, under an 1866 Mining Act statute 
known as R.S. 2477. The new policy makes it easier for states 
and counties to turn existing two-tracks, trails, and old dirt 
roads on Federal lands into roads or highways. The Norton 
policy allows the BLM to make so-called ``non-binding 
determinations'' as to the validity of a highway claim. In 
actuality, these determinations appear to ``bind'' the agency 
by allowing the counties to perform road maintenance and 
perhaps to open a now-closed route to motorized vehicle use.
    As Director, would you work to clarify this discrepancy and 
ensure land managers retain their authority over maintenance 
decommissioning?
    As Director, when would you report back to this Committee 
the cost of performing non-binding determinations on R.S.2477 
claims for the entire agency?
    Will the agency seek cost-recovery from an applicant?
    Answer. I have not had an opportunity to delve into the 
intricacies of the R.S. 2477 rights-of-way issues in great 
detail, but if confirmed, I will work to provide clarification 
if needed.
    Question 49. The Norton policy lacks detail about notifying 
the public, private property owners, Native Americans, local 
and state officials about R.S. 2477 claims under review at the 
agency. I believe it is critical to actively engage the public 
in important land management decisions.
    Can you provide me with an assurance and more details about 
how you would engage the public and stake holders about these 
pending decisions?
    Answer. I have not had an opportunity to delve into the 
intricacies of the R.S. 2477 rights-of-way issues in great 
detail, but believe strongly in public participation.
    Generally, under the Norton policy, how do you plan to work 
with other agencies like the National Park Service, Fish and 
Wildlife Service, Department of Defense, and the Forest Service 
to address R.S.2477 claims that transverse agency boundaries?
    Answer. If confirmed, I will ensure that BLM coordinates 
with other agencies.
    As Director, will you ensure that BLM will not process a 
mining application if the Park Service or other agency objects?
    Answer. If confirmed, I will ensure that BLM coordinates 
with other Federal agencies, including the National Park 
Service, as required under applicable law.
    Question 50. Abandoned Mine Cleanup.--There are over a half 
million abandoned hardrock mines across the west, including 
thousands of mines in my state of Washington. Local communities 
and Native American tribes have to deal with the pollution 
created by these mines, but there is no dedicated Federal 
funding source for cleaning up these mines.
    What suggestions would you put forward, as Director of the 
BLM, to fund cleanup of the mining industry's legacy of 
abandoned hardrock mines?
    Answer. I appreciate the magnitude and complexity of 
abandoned mine cleanup in your state and across the West. 
However, I have not been briefed on the status of this program 
or the available funding. If confirmed, I will become informed 
on the issue.
    What is your position on charging a royalty or rental fee 
for mining on public lands to pay for cleaning up these old 
sites?
    Answer. Because I have no specific background or knowledge 
on the issue of charging a royalty or rental fee as a matter of 
law, regulation, or policy, I believe it would be inappropriate 
for me to take a position on this without a substantive 
briefing on the matter. If confirmed, I would be pleased to 
involve myself in this issue and give it my utmost attention.
    Question 51. Regarding interagency wildland fire 
cooperation, specifically with the Appropriate Management 
Response, very few if any of the BLM Resource Areas permit 
Wildland Fire Use. Yet, this is an important tool to reduce the 
risks, costs, and impacts of fire suppression.
    Will you direct the BLM to begin authorizing Wildland Fire 
Use on some of its areas?
    Answer. I agree that Wildland Fire Use (WFU) is an 
important tool for fire agencies to help achieve an ecological 
balance on public land. I am advised that BLM already 
authorizes WFU on the public lands: land-use plans have 
identified about 12 million acres of land where WFU would be 
the appropriate response. I understand that, to date in 2007, 
WFU has been the BLM's response to wildfire on nearly 26,000 
acres. If confirmed, I would encourage further WFU when it is 
the appropriate response.
    How will BLM coordinate with the Forest Service when a 
Forest Service Wildland Fire Use crosses over to BLM land?
    Answer. I am advised that the BLM, in its fire planning 
process, consults with neighboring managers and landowners in 
an attempt to mirror their plans should a fire cross ownership 
boundaries or approach a mutual boundary. I know that fire does 
not respect agency or private land boundaries and that a 
coordinated, cohesive response is needed.
    Question 52. The anticipated impacts of climate change and 
invasive weed spread will hit BLM rangelands hard. We are 
observing serious wildland fire conditions such as an 
increasing number of large and severe wildfires, lengthened 
wildfire seasons, increased areas burned, and increasing 
numbers of large wildfires in fire-sensitive ecosystems. The 
annual number of acres burned on public lands has been 
increasing over the last couple of decades. Recent research 
suggests that these trends are, in part, related to shifts in 
climate. For example, a warming climate is contributing to 
longer wildland fire seasons with more extreme wildland fire 
events, which greatly increase the risk to human lives and 
infrastructures. Las November, the Association for Fire Ecology 
in the ``San Diego Declaration on Climate Change and Fire 
Management'' issued specific actions that Federal land managers 
can take to better prepare for and mitigate future impacts of 
climate change on wildland fire management.
    Are you familiar with the ``San Diego Declaration on 
Climate Change and Fire Management''? Will you commit to 
support the policy principles laid out in the Declaration?
    What is your plan to implement the recommendations in the 
Declaration to ensure that the Federal government is prepared 
to address the impacts of climate change on wildland fire 
management?
    What is your plan to mitigate the effects of climate change 
on BLM lands?
    Answer. I am not familiar with the ``San Diego Declaration 
on Climate Change and Fire Management.'' I do have a varied 
background in fire and intend to make it one of my focus 
priorities if confirmed as Director. In my present position, I 
co-chaired the WGA panel on ``Fire Costs'' which also made 
recommendations to the Federal agencies and concluded that 
climate change is one of the drivers of continued severe 
wildfire activity. I served as a member of the Wildland Fire 
Leadership Council on behalf of WGA through May of 2006. I also 
serve on the Governor's task force which has developed an 
invasive species management plan. Invasive species are a 
significant issue in some ecosystems and contribute to an 
increase in wildland fire occurrences. In addition, wildland 
fire can result in an increase in invasive species. If 
confirmed, be assured that I will fully consider the 
recommendations in the Declaration and other important issues 
related to BLM's wildland fire management program.
    Question 53. BLM is currently withdrawing support from the 
Rural Fire Assistance program. In fact, the Department of 
Interior eliminated Rural Fire Assistance from the FY 2007 
budget, even though applications were solicited from fire 
Departments.
    a. What is your plan to support volunteer firefighters with 
the wildfire equipment and training needed to support the BLM 
mission?
    Answer. I believe local fire departments are an integral 
component of the Nation's wildland fire community. Their first-
response capabilities are crucial to the success of land 
management agencies in protecting lives and values at risk. 
Their services also result in tremendous cost savings to 
taxpayers. I am advised that although the Rural Fire Assistance 
program has been phased out, the Federal firefighting agencies 
are planning to provide wildland fire training to these 
departments to enhance their safety, effectiveness, and 
capabilities in responding to and managing wildland fires. If 
confirmed, I will work with you to ensure that rural fire 
departments receive support to enhance their safety, 
effectiveness, and capabilities.
    Question 54. One result of successful collaboration between 
citizen groups and various Federal forest managers in the 
Pacific Northwest is a broad agreement on the need to avoid 
controversial logging projects and focus instead on thinning 
dense young forests in order to restore forests and create 
jobs.
    Do you agree with this priority?
    Answer. I agree that restoration of forest ecosystems that 
includes thinning is a priority and focuses on the wildland 
urban interface. You have my commitment to support policies and 
provide direction that will make planning adaptive, dynamic, 
and rely upon ``placed based'' ecosystem management principles 
and landscape-scale assessments, if I am confirmed as Director.
    What is your plan to work to conserve the last remaining 
old growth forests and consider shifting BLM's efforts toward 
restoration?
    Answer. I am very familiar with the old growth forest issue 
and understand fully the important role old growth forests play 
in a properly functioning ecosystem. What I have yet to learn 
is what current direction exists in BLM resource plans 
regarding old growth management. If confirmed, I will learn 
about the old growth situation on BLM managed lands and take 
appropriate steps to implement proper guidelines.
    Question 55. The BLM is currently developing new management 
plans for several heavily forested districts in the Northwest 
that provide habitat for threatened spotted owls, marbled 
murrelets, and Pacific salmon. These forests were included in 
the interagency Northwest Forest Plan that requires BLM to 
conserve old growth forests and help provide habitat corridors 
between the Cascades and Coast Ranges of Oregon. Scientists 
have long said that the Northwest Forest Plan will simply not 
work unless BLM fully participates in the conservation and 
restoration of these forests.
    What will you do to ensure that the scientific integrity 
and credibility of the Northwest Forest Plan is not undermined?
    Answer. I am not as familiar with the requirements of the 
Northwest Forest Plan as I moved to Idaho in 1986 prior to its 
development. I do understand and support integrated planning 
and the importance of conserving habitats particularly across 
broad landscapes with multiple intermingled ownership patterns. 
If confirmed, you have my commitment to become well-informed on 
the current planning effort under way in Washington, Oregon, 
and Northern California.
   Responses of Brent T. Wahlquist to Questions from Senator Bingaman
    Question 1. Tribal Primacy.--The amendments to the Surface Mining 
Act passed last year provide for a long overdue change that allows 
tribes to apply for and receive primacy to regulate coal mining on 
reservation lands.

  <bullet> What is the status of implementation of this provision?

    Answer. Since the 2006 amendments contain some provisions that 
differ for Tribes when compared to States, the Office of Surface Mining 
Reclamation and Enforcement (OSM) is considering rulemaking to clarify 
the scope and procedures for Tribal primacy. OSM has consulted with the 
Tribes on this issue and expects to make a decision in coordination 
with the Solicitor's office on whether to pursue rulemaking in the near 
future.

  <bullet> I know that the Navajo Nation has had a long-time interest 
        in assuming primacy over this program. What work are you 
        undertaking to facilitate this?

    Answer. Prior to the passage of the 2006 amendments, OSM had worked 
with the Navajo Nation to develop the Tribal code and regulations 
needed for a regulatory program. Since passage of the 2006 amendments 
authorizing Tribal primacy, OSM has continued to work informally with 
the Nation to refine their draft program for presentation to the Tribal 
Council so that it can be finalized and submitted to the Secretary for 
consideration.
    Question 2. Mountain Top Removal.--There has been ongoing 
controversy regarding mountain top removal mining and the related use 
of valley fills. This has become a fairly widely-used technique in some 
areas of the eastern United States.

  <bullet> What is OSM's role in regulating this practice?
  <bullet> What is OSM doing to address concerns that have been raised?

    Answer. OSM's regulations serve as the Federal model for State 
rules under the Surface Mining Act, based on the concept of primacy. 
States play the primary role in regulating coal mining and reclamation 
under the provisions of the Act. The concerns about mountaintop mining 
have included topographic changes, post-mining land use issues, forest 
fragmentation, stability of fills and the impacts of excess spoil fills 
on streams. OSM is addressing concerns about mountaintop mining both 
through cooperative efforts with state and Federal regulators as well 
as through development of national regulations. Cooperative efforts 
with the Appalachian States to address concerns include the following:

    --Guidance was developed on approximate original contour (AOC) to 
            ensure the maximum amount of spoil is returned to the mined 
            area.
    --Guidance was developed for allowable post-mining land uses to 
            ensure that variances from AOC authorized by the Surface 
            Mining Act are properly applied.
    --Inspection techniques for valley fill construction requirements 
            have been developed to ensure stability of fills.
    --An initiative has been established that encourages returning mine 
            land to productive hardwood forests to address forest 
            fragmentation. Proper forest reclamation also reduces peak 
            flows that contribute to flooding.
    --Work is ongoing with the EPA, U.S. Army Corps of Engineers, and 
            the Fish and Wildlife Service to share data and coordinate 
            reviews required by the Clean Water Act, the Endangered 
            Species Act, and SMCRA to establish coordinated permitting, 
            make better permit decisions, and minimize environmental 
            impacts.

    OSM also has determined that two issues warrant Federal rulemaking. 
OSM's proposed rule, which is accompanied by a draft Environmental 
Impact Statement, is now in final review. It seeks to minimize the 
scope and environmental impacts of valley fills and other activities in 
proximity to streams. The proposal also intends to eliminate confusion 
about the meaning of existing rules that has been highlighted by the 
controversy over mountaintop mining. If adopted, the rule should 
provide improved environmental protection as well as greater clarity 
and regulatory stability.
    Question 3. State Regulatory Funding.--Recently, several states 
have raised concerns that the Administration has not requested the 
funding needed to ensure that the state regulatory programs can be 
administered adequately.

  <bullet>  What steps do you plan to take to ensure that adequate 
        funds are requested and allocated to the states for this 
        important use?

    Answer. The President's FY 2007 budget included an increase of $2 
million for state regulatory grants, an increase of 3.5%. However, as a 
result of the FY 2007 continuing resolution, the States and Tribes did 
not receive an increase in funding. In the President's FY 2008 budget 
request to Congress, a $4.2 million increase was requested over the FY 
2007 continuing resolution in regulatory program grants, which amounts 
to a 7.5% increase. If confirmed, I will continue to promote adequate 
funding for the States and Tribes.
    Question 4. What is the time frame for the rulemaking to implement 
amendments to the Surface Mining Control and Reclamation Act contained 
in the Tax Relief and Health Care Act of 2006?
    Answer. By September 30, 2007, OSM plans to promulgate an interim 
final rule to implement those provisions that must be in effect before 
FY 2008 distributions to States and Tribes can occur. At the same time, 
OSM intends to issue a proposed rule that will include an opportunity 
to comment on both the interim final rule and additional provisions 
contained in the proposed rule. OSM anticipates promulgating a final 
rule addressing the comments received by the beginning of FY 2009. If 
confirmed, I will work with OSM to meet these commitments.
    Question 5. There are additional rulemakings pending before OSM. 
Please provide us with an update on the status and timelines for:

  <bullet> the procedural rules on ownership and control that underlie 
        the Applicant/Violator System;
  <bullet> the stream buffer zone proposed rule and accompanying draft 
        EIS;
  <bullet> the anticipated rulemaking on mine placement of coal 
        combustion by-products.

    Answer. The final ownership and control rulemaking is anticipated 
to be published before the end of calendar year 2007. The proposed 
excess spoil minimization/stream buffer zone rule and draft EIS are in 
final review, and publication is expected in the near future. OSM 
published an advance notice of proposed rulemaking related to mine 
placement of coal combustion by-products in March 2007 and is currently 
reviewing the comments received. OSM anticipates publication of a 
proposed rule before the end of calendar year 2007.
     Response of Brent T. Wahlquist to Question from Senator Wyden
    Question 6. Mr. Wahlquist, the most destructive form of surface 
mining at present is mountaintop removal mining. An Environmental 
Impact Statement from the EPA in 2003 estimated that up to 1.3 million 
acres of land--mountain ridges, forests and waterways--could be 
destroyed by mountaintop mining by the end of the next decade, 
approximately the size of the State of Delaware. During your OSM career 
to date, you've advocated a hands-off policy on Federal regulation of 
mountaintop removal. You rejected a plea last year from Tennessee's 
governor when he asked OSM to develop an Environmental Impact Statement 
on the destruction caused by mountaintop removal in his state. In the 
1990's, you wrote one policy memo that ended West Virginia's ``50-foot 
rule'' on restoring the contours of mountains after mountaintop 
removal, and you wrote another essentially throwing the reclamation 
issue back at the state governments. Are there any new restrictions on 
mountaintop removal or any new environmental safeguards on surface 
mining which you would agree for OSM to enact should you be confirmed 
as director? Or are do you believe the status quo is acceptable?
    Answer. I do believe that additional changes are needed. I have 
concerns about mountaintop mining that include topographic changes, 
post-mining land use issues, forest fragmentation, stability of fills 
and the impacts of excess spoil fills on streams. The Office of Surface 
Mining Reclamation and Enforcement (OSM) has addressed some of these 
concerns through cooperative efforts with state and Federal regulators. 
Cooperative efforts with the Appalachian States to address concerns 
include the following:

  <bullet> Guidance was developed on approximate original contour (AOC) 
        to ensure the maximum amount of spoil is returned to the mined 
        area.
  <bullet> Guidance was developed for allowable post-mining land uses 
        to ensure that variances from AOC authorized by the Surface 
        Mining Act are properly applied.
  <bullet> Inspection techniques for valley fill construction 
        requirements have been developed to ensure stability of fills.
  <bullet> An initiative has been established that encourages returning 
        mine land to productive hardwood forests to address forest 
        fragmentation. Proper forest reclamation also reduces peak 
        flows that contribute to flooding.
  <bullet> Work is ongoing with the EPA, U.S. Army Corps of Engineers, 
        and the Fish and Wildlife Service to share data and coordinate 
        reviews required by the Clean Water Act, the Endangered Species 
        Act, and SMCRA to establish coordinated permitting, make better 
        permit decisions, and minimize environmental impacts.

    I believe that OSM needs to strengthen requirements for excess 
spoil disposal, which is primarily related to mountaintop mining, and 
for coal refuse disposal, which is related to both surface and 
underground mining, particularly as these activities contribute to 
stream loss.
    OSM has prepared a proposed rule that is in the final stages of 
review and is supported by a draft Environmental Impact Statement. The 
proposed rule seeks to minimize the scope and environmental impacts of 
valley fills and other activities in proximity to streams. The proposal 
also intends to eliminate confusion about the meaning of existing rules 
that has been highlighted by the controversy over mountaintop mining. 
If adopted, the rule should provide improved environmental protection 
as well as greater clarity and regulatory stability. If confirmed, I 
look forward to working with you on this very important issue.
    Response of Brent T. Wahlquist to Question from Senator Salazar
    Question 7. As our country seeks to produce more of its energy 
domestically, and knowing that coal is our country's most abundant 
fossil energy resource, please describe the greatest challenges you see 
facing the Office of Surface Mining Reclamation and Enforcement in the 
coming years.
    Answer. In accordance with State primacy provisions in the Surface 
Mining Control and Reclamation Act, the Office of Surface Mining 
Reclamation and Enforcement (OSMRE) directly regulates less than 3% of 
the Nation's coal mining. Therefore, one of OSMRE's greatest challenges 
will be to make sure States and Tribes have the tools and resources 
they need to be able to timely issue permits and maintain quality 
regulatory programs that protect people, land, and water in the face of 
substantial staff turnover through retirements, at OSMRE and the States 
and Tribes.
    Thus, OSMRE will need to provide adequate regulatory funding, a 
stable regulatory framework that will accommodate technological 
advances, technical training, consistent oversight, and the technical 
tools needed to promote and maintain high quality regulatory programs. 
If confirmed as Director, I will certainly work toward that end.
    Question 8. Can you explain how OSMRE selects mine reclamation 
projects to be cleaned up under the Abandoned Mine Reclamation Fund, 
and how many projects were cleaned up last year?
    Answer. The Abandoned Mine Land Program is implemented through 
States and Tribes who conduct reclamation in accordance with a 
reclamation plan approved by the Secretary of the Interior. Projects 
are selected by the States and Tribes consistent with their reclamation 
plans. OSMRE conducts high priority reclamation in States that do not 
have an approved plan. Of the 299 sites completed in FY 2006, only 15 
were conducted by OSMRE.
           Responses of Brent T. Wahlquist to Questions from 
                           Senator Murkowski
    Question 9. Congress directed last year that states with small 
abandoned mine programs should receive a minimum grant of $3 million 
annually, with no phase-in period for that minimum amount. Will you 
comply with this directive if confirmed?
    Answer. The language of section 402(g)(8)(A) of the Surface Mining 
Control and Reclamation Act authorizes a minimum grant of $3 million to 
states with an approved abandoned mine reclamation program. However, 
Section 401(f), which actually provides for the distribution of Section 
402(g)(8)(A) funds, contains a phase in provision. The Office of 
Surface Mining Reclamation and Enforcement (OSM) has been working with 
the Solicitor's Office to make sure the Act is appropriately 
implemented concerning this issue. If confirmed, I will work with the 
Solicitor's Office on moving forward to implement the amendments.
   Responses of Brent T. Wahlquist to Questions from Senator Barrasso
    Question 10. Do you share my view that the newly amended Surface 
Mining Control and Reclamation Act of 1977 (SMCRA) mandates payments to 
certified states as it relates to both past and future revenues? If 
not, why not?
    Answer. Yes.
    Question 11. Do you believe the certified states' distributions are 
to be considered payments or grants?
    Answer. In discussions with the Office of the Solicitor, the Office 
of Surface Mining Reclamation and Enforcement (OSM) is analyzing 
whether the use of the term ``payment'' in Section 411(h) contained in 
the 2006 amendments to the Surface Mining Control and Reclamation Act 
mandates or authorizes a distribution mechanism other than grants.
    Question 12. I am committed to making sure that Wyoming and every 
other state and Indian tribe receive their Abandoned Mine Land funds, 
both past and future. Can I count on your support to make this happen 
and what steps will you take to help in this effort?
    Answer. If confirmed, I will work to ensure that all States and 
Tribes receive the funding in compliance with Title IV of the 2006 
amendments to SMCRA. I will consult with the Solicitor's Office in this 
effort.
    Question 13. During your testimony today, you mentioned on several 
occasions that you will be relying on the solicitor to provide guidance 
on how funds under SMCRA will be distributed to certified states. When 
do you anticipate you will receive that guidance and will you or your 
office provide that information to me?
    Answer. The Solicitor's Office is diligently working with OSM to 
provide the necessary guidance in time for OSM to publish an interim 
final and a proposed rule by the end of the fiscal year. If confirmed, 
I will promptly notify you of the decisions.
    Question 14. What role, if any, does the Office of Management and 
Budget have in the rule making process you have undertaken to implement 
the provisions of the December 2006 amendments to SMCRA?
    Answer. Over the last few months, OSM has been working with OMB 
regarding this particular rulemaking.
    Question 15. Has OMB stated their position to your office on how 
distribution of certified state and Indian tribe funds should be 
treated (payments versus grants)?
    Answer. OSM has discussed this issue with OMB; however, OMB has not 
stated a position.
    Question 16. Have you or the Office of Surface Mining evaluated 
alternatives to the Federal grant process for the distribution and 
payment of funds as called for in the Amendments?
    Answer. OSM, in coordination with the Office of the Solicitor, 
currently is evaluating the different mechanisms for distributing the 
AML and Treasury funds under the 2006 amendments.
                                 ______
                                 
   Responses of Clarence H. Albright, Jr., to Questions from Senator 
                                Bingaman
    Question 1. Technology Commercialization Fund.--Section 1001(e) of 
the Energy Policy Act of 2005 directs the Secretary of Energy to place 
0.9 percent of the amount made available to the Department of Energy 
for applied energy research, development, demonstration, and 
commercialization application each fiscal year into a Technology 
Commercialization Fund, to be used to provide matching funds to promote 
promising energy technologies for commercial purposes. If confirmed, 
will you ensure that the Technology Commercialization Fund is 
implemented?
    Answer. I was glad to see that last month the Secretary of Energy 
took the important step of appointing a Technology Transfer Coordinator 
(Ray Orbach, Under Secretary for Science), as well as a Technology 
Transfer Policy Board. If confirmed I would look forward to working 
closely with Under Secretary Orbach in this important endeavor. I do 
not know the current status of DOE's implementation of the Technology 
Commercialization Fund, but I would look forward to hearing the 
recommendations of others in the Department with respect to the 
Technology Commercialization Fund.
    Question 2. FutureGen.--The cost of the FutureGen has reportedly 
doubled. How do you plan to contain the cost of this program? Can you 
provide the Committee an estimate of total costs to completion for the 
record?
    Answer. I understand that the Department recently announced a 
significant cost escalation in this important program which is the 
result of a number of factors. I am strongly committed to the 
construction of the FutureGen facility and would make advancement of 
this project as well as proper management of the project a high 
priority. The Department and the FutureGen Alliance must work together 
and consider options for containing costs.
    Question 3. Technology Readiness Levels.--If confirmed, would you 
support the inclusion of technology readiness levels, such as those 
used by the Department of Defense and NASA, in DOE's Order 413, 
``Program and Project Management for the Acquisition of Capital 
Assets''?
    Answer. I would be pleased to review the practices of NASA and the 
Defense Department, if confirmed, and to consult with DOE's Office of 
Management and project management officials regarding whether these 
practices could or should be applied at DOE.
    Question 4. Integrating Basic and Applied Science--If confirmed, 
how will you make the best use of frontier science conducted by the 
Office of Science to accelerate applied energy R&D?
    Answer. If confirmed, I would look forward to working closely with 
Ray Orbach, DOE's Under Secretary for Science, to identify ways to 
integrate the work of the basic science research activities of the 
Department with those of the applied science programs through 
cooperation between the various programs. Close coordination and 
communication between these program offices can lead to greater 
integration of basic and applied science activities.
    Question 5. Portfolio Budgeting.--If confirmed, will you support an 
integrated portfolio budget approach to integrating programs between 
the applied energy research programs which you will be responsible for 
and frontier science program with the Office of Science?
    Answer. I would need to study such a proposal further, and consult 
with the Office of Science, the Department's Chief Financial Officer 
and others before determining whether an integrated budget approach 
would be advisable.
    Question 6. Nuclear Waste Management.--What is your view of the 
status of the nuclear waste program? Is the Yucca Mountain program in 
trouble? What is your opinion on the need for DOE to provide interim 
storage services to commercial nuclear power plants?
    Answer. I am a proponent of the Yucca Mountain program and believe 
that our country must address the issue of nuclear waste disposal. 
While the schedule for construction of the repository has been delayed, 
I understand that the Department is expected to file a License 
Application with the Nuclear Regulatory Commission by June of 2008, and 
this will be a major step forward for the program. I do not currently 
have a view about whether there is a need for DOE to provide interim 
storage services, but I look forward to learning more about this issue.
Responses of Clarence H. Albright, Jr., to Questions from Senator Wyden
    Question 7. A Balanced Energy Portfolio.--As discussed during the 
hearing and during our meeting, as Under Secretary of Energy, you will 
be responsible for managing the Department's energy technology 
portfolio--energy efficiency, renewable energy, fossil energy, nuclear 
energy, etc. In the Administration's current budget request--for the 
second year in a row--no funds were requested for geothermal energy. No 
funds were requested for wave energy, tidal energy, or new 
hydroelectric turbine technologies. Last January, the President called 
for replacing 20% of our gasoline with alternative fuels and more 
efficient vehicles. But funding for biofuels in the Renewable Energy 
budget, which is critical to achieving the President's goal of reducing 
our need for gasoline by increasing the production of biofuels and 
developing new vehicle technologies, increased by less than $30 
million. Research into new vehicle technologies increased by less than 
$10 million. On the other hand, funding for nuclear energy development 
increased by $120 million to $568 million. If you are confirmed, what 
are you going to do to ensure that there is more balance in 
Department's energy technology portfolio? What actions will you take to 
reassess the Department's decision to terminate funding for geothermal 
and hydroelectric and ocean energy technologies?
    Answer. I understand your strong interest in pursuing a balanced 
energy portfolio, as we discussed in our meeting prior to my 
confirmation hearing as well as in the hearing itself. As you 
requested, I have obtained a copy of the recent MIT study on geothermal 
technology and, while I am still studying it, I believe it raises some 
very interesting points about this technology which are worthy of 
further discussion and review. I do believe that to address our 
Nation's energy needs we must pursue a wide variety of new energy 
supplies. If confirmed I would look forward to discussing the funding 
priorities for various programs with other Administration officials.
    Question 8. Industrial Efficiency.--According to EIA, about one 
third of total U.S. energy consumption is consumed by the industrial 
sector. These U.S. companies, as we all know, must now compete in the 
global economy and for many industries--such as the pulp and paper 
industry in my state--energy costs are major factor in their ability to 
compete. DOE's budget request cut funding for every single industry-
specific energy efficiency program. Funding for the forest and paper 
products industry would be cut to $1.7 million. DOE proposed to cut 
funding for the aluminum industry to $1.7 million. The Senate just 
adopted, as part of the Energy Bill, a provision that would require DOE 
to enter into cooperative agreements with energy intensive industries 
to help them save energy and compete in the world market. Similarly, 
the Senate Energy & Water Appropriations bill for FY 2008 also directs 
the Department to fund these industry-specific programs. If you are 
confirmed, what will you do to ensure that the Department does not 
continue to short change industrial efficiency? And what assurance can 
you give me that if the Senate authorization and appropriations 
provisions become law, you will fully implement the industrial 
efficiency partnership program?
    Answer. To answer the second part of your question, I am a firm 
believer in implementing the laws as passed by Congress, and if 
confirmed you can be assured that I will carry that message into the 
Department. With respect to the specific programs you mentioned, I 
would need to learn more about why the Department chose its proposed 
spending levels for the each specific program. In general, I believe 
the Department has placed a strong emphasis on promoting energy 
efficiency and I support that.
    Question 9. Strategic Petroleum Reserve--Expansion.--If you are 
confirmed, you will be responsible for fossil energy programs, 
including the Strategic Petroleum Reserve. The Administration has 
proposed to increase the size to 1.5 billion barrels. EIA says that 
thanks to OPEC oil prices are going to be between $50 and $60 a barrel. 
At $55 a barrel (which is far less than it is today), the price of 
another 800 million barrels of oil is $44 billion. At today's prices of 
almost $73 a barrel, that's almost $59 billion, just for the oil. DOE 
estimates the cost of building the additional storage capacity to reach 
1.5 billion barrel capacity will cost around $10 billion. So that's 
between $54 billion to $69 billion of taxpayers' money which will not 
actually reduce our dependence on oil, but will simply put crude oil 
back in the ground at a time when the market indicates there is a world 
shortage of oil. We can improve our energy security by reducing our 
dependence on oil by increasing our investments in efficiency and new 
fuels, or we can literally spend billions of dollars removing crude oil 
from the market and putting it back in the ground. Why does that make 
sense and will you, if confirmed, reexamine the Administration's plans 
for expanding the Strategic Petroleum Reserve?
    Answer. The Strategic Petroleum Reserve was established to protect 
our nation from major disruptions in oil supply resulting from 
catastrophic natural disasters or international developments out of our 
control. Over the years the period of time which the volume of oil in 
the Reserve could replace (or at least compensate for) the loss of 
supply has decreased because our demand has increased. The expansion 
proposal would strengthen our protection against major disruption 
supplies and enhance our national security. The proposal to expand the 
Reserve to 1.5 billion barrels would take place over many years. I do 
however understand and appreciate your concern about Federal purchases 
of oil at a time when prices are high, and if confirmed I will examine 
how to accomplish this goal in an economically sensible manner.
    Question 10. Hanford Clean-up--Schedule and Management.--Over some 
45 years, Hanford produced some 74 tons of plutonium, first to make 
nuclear weapons and later as part of its continued operation of the N-
Reactor despite the fact that it was no longer needed. The results are 
well known to all. Some 1,600 identified waste sites. Some 53 million 
gallons of high-level waste stored in 177 underground storage tanks. 
Sixty-seven of those 177 tanks are suspected to have leaked that waste 
into the soil. The list goes on.
    We are now coming up on the 20th anniversary of the signing of the 
Tri-Party Agreement between DOE, the State of Washington, and the U.S. 
Environmental Protection Agency that was supposed to set specific, 
enforceable milestones for the clean-up. DOE has now been trying to 
clean up the nuclear waste and environmental contamination for half as 
long as the site was actually in operation--more than 20 years--with no 
end in sight. In fact, we are going backwards.
    The high-level waste vitrification plant was supposed to be 
completed and in operation by 2011 according to the Tri-Party 
Agreement. It is now being delayed another eight years and it won't be 
completed until 2019. And at a cost that has more than doubled--from 
$5.8 billion estimated in 2003 to this year's estimate of $12.3 
billion. And, DOE's plan still leaves no solution for more than half of 
the so-called low-activity waste that is supposed to be removed from 
the tanks which also requires vitrification and disposal. There's still 
no real plan for dealing with the contamination that has leaked out of 
the tanks. And just this year, DOE was fined $1 million by EPA for 
failing to properly manage even the low-level waste burial sites.
    If you are confirmed, what will you do to fix the management 
problems at Hanford an get the clean-up program back on track?
    Answer. Cleaning up the waste left over from the Nation's Cold War 
nuclear weapons production is one of the most critical responsibilities 
of the Department of Energy. If confirmed, this mission would be one of 
my highest priorities. I would look forward to working closely with the 
Office of Environmental Management to improve the management of the 
cleanup program. I understand that there have been significant cost 
increases and delays in the cleanup effort at Hanford and I believe it 
must be a top priority for the Department to get these costs under 
control and move on with the cleanup. If confirmed, I would look 
forward to traveling to Hanford to meet with officials and learn more 
about what we can do to address these problems. I would look forward to 
partnering with you in this effort.
    Question 11. Hanford Clean-up--GNEP.--DOE has not fulfilled its 
obligation to clean-up Hanford. It's not clear when it will. But now, 
DOE is proposing to bring more waste to Hanford--this time in the form 
of spent nuclear fuel from commercial nuclear power plants, as part of 
its GNEP program. The DOE proposal also calls for building more 
reprocessing facilities to separate plutonium and uranium from this 
fuel and generate more high-level waste, more transuranic waste, and 
more low-level waste. And more radioactively contaminated buildings 
that will need to be decommissioned.
    Hanford does not need more nuclear waste. It needs less. If you are 
confirmed as Under Secretary, what assurance can you give me that DOE 
will not be bringing more spent fuel and nuclear waste to Hanford and 
that we will see the wastes that are there cleaned up?
    Answer. As discussed above, I believe one of the highest priorities 
of DOE must be the cleanup of the nuclear waste left over from Cold War 
nuclear weapons production, and I would make the cleanup at Hanford a 
top priority during my tenure at DOE, should I be confirmed by the 
Senate. As for the proposals to take waste to Hanford described in your 
question, I do not know the specifics of any such plans. I would need 
to study this further and ask questions of DOE officials about those 
plans. I look forward to hearing your input on how DOE could more 
effectively manage its cleanup efforts at Hanford, and throughout the 
country.
    Question 12. Reliant Energy--Market Abuses.--You represented 
Reliant Energy from 1997 to 2004. During this time, Reliant--a Houston-
based energy company--contributed directly to the California/Western 
energy crisis in 2000 and 2001. Federal regulators ultimately entered 
into five different settlements related to Reliant's conduct. In 
January 2003, FERC approved a settlement with Reliant for withholding 
power in the California market obligating Reliant to pay $13.8 million. 
In October 2003, FERC entered into a second settlement with Reliant, 
this one for $50 million to settle claims for market manipulation. In 
November 2003, the Commodity Futures Trading Commission issued an $18 
million civil penalty against Reliant for false reporting and attempted 
manipulation of natural gas prices as well as engaging in was sales and 
false reporting of electricity prices. In March, 2004, FERC entered 
into yet another settlement with Reliant for $860,000 for gaming--using 
a gaming practice known as ``Double Selling.'' And then in December 
2005, FERC entered into yet another settlement with Reliant, this one 
for refunds to California customers for $460 million. My question for 
you is simple--what do you know about Reliant's marketing and trading 
practices during the Western energy crisis, and when did you know it? 
What action, if any, did you take to halt or to advise against such 
abuses by Reliant?
    Answer. I was the head Reliant legislative lobbyist in Washington, 
D.C. I was not in a policy making position in the company, nor did I 
function in an operational capacity. I had no knowledge that some of 
Reliant's employees were engaged in unlawful practices until near or 
about the time that the public learned of it.
    Once there were accusations from various fronts that Reliant's 
practices in California were questionable, I approached the CEO and 
several other senior officials in the company and asked directly if 
they had ``done anything wrong.'' I was assured that they had not.
    I urged that when dealing with allegations of wrongdoing, it is 
always the best for government relations for the company to investigate 
accusations of wrongdoing thoroughly, find out the truth, correct 
anything that could be corrected and let the public know that the right 
thing is being done. Basically, I believe that transparency is a good 
thing. I urged that such a course be followed.
    Question 13. Reliant Energy--Lobbying Positions and Views.--
According to Reliant's lobby disclosure forms you lobbied on a range of 
energy issues. For example in 2004 you lobbied on the S. 509, the 
Energy Market Oversight Act introduced by Sen. Feinstein with 8 co-
sponsors including myself to give FERC more authority to conduct 
investigations and increase penalties for violations of the Federal 
Power Act and the Natural Gas Act. And you also lobbied on Sen. 
Cantwell's bill S. 681, the Electricity Market Manipulation Prevention 
Act. And you lobbied on Congressman Dingell's bill, the Energy Markets 
Fraud Prevention and Consumer Protection Act. Just to name a few of the 
legislative proposals that were aimed at addressing the abuses that 
companies like Reliant and Enron perpetrated in the energy markets. 
What position did you personally take with regard to these reforms, and 
what position did you advocate on behalf of Reliant with regard to 
these reforms? What is your view on what reforms are needed to ensure 
that energy markets are not subject to the abuses that occurred in the 
2000-2001 timeframe?
    Answer. As a lobbyist for Reliant I tried not to take personal 
positions, but rather to represent the company's position as best I 
could. The company opposed the matters you reference in your question 
and, accordingly, I lobbied against them.
    Regarding reforms needed, I believe that the EPACT 2005 statute 
contains a Market Manipulation provision that is aimed at just the type 
of behavior referenced in your question. Also, the imposition of both 
criminal and civil sanctions against those engaged in inappropriate 
activity would suggest that there were measures in place during the 
2000-2001 time-frame that provided government authorities with the 
ability to levy sanctions against the behavior in question.
    Question 14. Reliant Energy--Failure to File Lobby Report Forms.--
You appear to have been the senior official in Reliant's Washington DC 
office between 1997 and 2004. (According to your resume, you were Vice 
President for Federal Relations during that period.) During your tenure 
at Reliant, in the 2002-2004 timeframe, Reliant failed to file lobby 
disclosure forms as required by law. Specifically, Reliant did not file 
its 2002 end of year report on time. In fact, it was not filed until 
April 2004. And the 2003 end-of-year report was not filed in February 
2004 as required, but also not filed until April, 2004. When the forms 
were finally filed, they were filed by a Federal relations manager who 
apparently reported to you--Holly Lass. As a senior corporate official 
for Federal relations, what responsibility did you have for ensuring 
these reports were filed? Who was responsible for filing these reports 
and why weren't they filed as required?
    Answer. The responsibility for filing the Lobbying Report Forms 
rested in Houston for the time that I was with Reliant. Apparently that 
was clear with both the House and the Senate as correspondence 
concerning the filings was directed to Houston.
    At some point after August 26, 2002, the individual, who worked 
outside my operation and who was responsible for filing the reports, 
left the company in a reorganization. It appears that the 
responsibility for filing the reports was not reassigned. As best I can 
tell at this point, at least two notices were sent to Houston regarding 
the ``timeliness'' of the several filings in question. It is unclear to 
me what action was taken in Houston regarding these notices. It does 
appear that Ms. Lass, who did work for me, forwarded several of the 
reports in early 2004. I do not know why she forwarded or filed the 
reports in question. To the best of my recollection she neither had the 
responsibility nor the authority to file the documents. I understand 
that entities charged with accepting the filings consider that the 
requirements applicable to making these filings were fully complied 
with by early April of 2004.
       Responses of Clarence H. Albright, Jr., to Questions from 
                            Senator Salazar
    Question 15. National Renewable Energy Laboratory.--The National 
Renewable Energy Laboratory (NREL) in Golden, Colorado, is the 
Department of Energy's premier national laboratory for renewable energy 
and energy efficiency research and development. I want to stress my 
desire to see that the National Renewable Energy Laboratory continues 
to be a high priority for the Department of Energy. I am very proud of 
this laboratory and know it holds great promise for our country. We 
were successful this year in securing $100 million in funding for much 
needed facilities and infrastructure support that is critical to NREL 
being able to carry out its mission. Unfortunately, the President's 
budget request for NREL in FY 08 was $181.5 million which was a 3% 
decrease from the FY 07 budget. We are at a critical juncture in our 
efforts to develop a sustainable plan to achieve energy independence in 
the 21st Century. If we are going to be leading our nation to achieve 
greater energy independence and security, we must substantially 
increase our investment in our Nation's premier renewable energy 
laboratory.
    Do you agree with my assessment that we must substantially increase 
our investment in renewable energy and clean energy technologies to 
reduce our dependence on foreign oil? I would like your commitment to 
work to fully fund NREL each budget year, and support the important 
work it does.
    Answer. I do agree that providing substantial investments in clean 
energy technologies is a critical element of the effort to reduce 
America's dependence on foreign oil. I am aware of the important role 
that NREL plays in this effort, as we discussed at my confirmation 
hearing. If confirmed, I would look forward to visiting NREL as soon as 
possible and learning more about the specific research underway at this 
important national laboratory. You have my commitment to work to do my 
best to provide appropriate funds for NREL within the broader context 
of the DOE and Administration budget.
    Question 16. Carbon Sequestration.--The Regional Carbon 
Sequestration Partnerships fall under the purview of the Under 
Secretary of Energy. Carbon sequestration is a proven technology that 
has been around for a long time, and one of the most promising areas 
for addressing global warming while allowing our country to continue to 
use our vast coal reserves. In the Renewable Fuels, Consumer 
Protection, and Energy Efficiency Act of 2007 that passed the Senate on 
June 21, 2007, Title 3 of the bill includes a carbon capture and 
storage research, development and demonstration program that seeks to 
speed the development of large-scale carbon capture and storage.
    In April, this committee heard testimony from Tom Shope, the Acting 
Assistant Secretary for Fossil Energy and George Guthrie, Program 
Director for Fossil Energy and the Environment, Los Alamos National 
Laboratory that indicated commercial-scale deployment of carbon 
sequestration wouldn't happen until 2045. I raised concerns in that 
hearing about the timing of large-scale commercial carbon sequestration 
deployment given that it is a proven technology, and the importance of 
addressing the global warming. If confirmed, what steps will you take 
to ensure the Department of Energy places a high priority on ensuring 
the carbon sequestration program moves ahead with more timely 
deployment of commercial-scale carbon sequestration projects?
    Answer. I am a strong supporter of carbon sequestration research 
and development and believe that these efforts will be critically 
important to reducing greenhouse gas emissions. I am impressed with the 
emphasis that DOE is placing on this effort through its Carbon 
Sequestration Program and its Regional Carbon Sequestration 
Partnerships. If confirmed I anticipate that I will be an active 
advocate for these research and development efforts, including 
efficient deployment of demonstration projects. I look forward to 
partnering with you and other members of Congress in this effort.
    Question 17. Oil Shale.--Colorado experienced significant social 
and economic turmoil due to the rapid boom and bust cycle of oil shale 
development in the 1980's. As DOE considers the various oil shale 
proposals, it is absolutely necessary for DOE and other Federal 
agencies to work closely with Colorado's Department of Natural 
Resources and representatives of local governments, as well as the 
environmental community, on any plans to develop oil shale. How will 
you do that?
    Answer. DOE activities related to development of oil shale 
resources are carried out under the Fossil Energy program. In 
overseeing that program, if confirmed, I would certainly emphasize the 
importance of cooperating with state and local governments in Colorado 
and elsewhere. Throughout my career in government I have made it a top 
priority to consult with other affected units of government in 
developing national policies, and I have always sought to develop 
consensus policies.
    Question 18. Electricity Transmission.--Reducing electrical 
transmission losses over long distances would mean an increase in 
energy efficiency, and could result in significant energy savings. 
Could you comment on how combining renewable energy sources with a 
distributed generation system would positively benefit rural areas?
    Answer. Renewable sources of energy, wind and solar power in 
particular, constitute a small percentage of this Nation's electric 
generation mix. They are, however, the most rapidly growing segment of 
that mix and for good reason: they produce electricity with no 
emissions.
    Incorporating a variety of different generating technologies into 
the Nation's grids enhances electric system resiliency and reliability. 
The Department engages in a broad range or research and development and 
demonstration for this reason. In addition, DOE invests in the pursuit 
of greater efficiency in generation sources and transmission and 
distribution, and assists the States in the design and implementation 
of demand response programs; all of which seek to decrease the level of 
demand placed upon our electric grid.
    Question 19. Legacy Management.--There are 18 legacy management 
sites in Colorado, and I am proud that the Office of Legacy Management 
has a legacy management and an environmental management office in Grand 
Junction, Colorado. Over the last several years, the Department of 
Energy has made decisions not to backfill positions in Grand Junction 
when they have been vacated, and has in some cases, moved functions to 
other offices across the country. Given the large number of legacy 
management sites in Colorado, it makes sense to keep these positions in 
Colorado. If appointed, can you commit to reexamine the staffing needs 
of the functions being performed in Grand Junction with the goal of 
retaining these important functions close to the legacy management 
sites?
    Answer. You make a compelling case for retaining legacy management 
activities within the greatest areas of legacy management sites, such 
as Colorado. Should I be confirmed, I would be willing to reexamine the 
staffing needs in Grand Junction. Of course, I would seek the advice 
and counsel of that site as well as that of the Office of Legacy 
Management leadership at DOE.
   Responses of Clarence H. Albright, Jr., to Questions from Senator 
                                Domenici
    Question 20. Mr. Albright, if you are confirmed, you will be in a 
unique position to ensure implementation of many of the provisions of 
that legislation (EPACT 2005). Some of that is well underway at DOE, 
but much remains to be done.
    In addition to the Title XVII implementation that we discussed at 
your hearing, what provisions of that Act do you feel should be 
priorities for implementation at this point?
    Answer. Let me say that one of my highest priorities should I be 
confirmed will be implementation of the Energy Policy Act of 2005, 
legislation in which I am proud to have played a role as staff in 
crafting along with you, Senator Bingaman, and Congressmen Barton and 
Dingell. I believe that we must move ahead expeditiously in 
implementing as much of EPACT as possible. As we discussed at my 
confirmation hearing, implementing the loan guarantee provisions of 
EPACT will be high on my agenda. If confirmed I would make it one of my 
first orders of business to conduct a thorough review of DOE's 
implementation of the Act to identify those areas where the Department 
is behind schedule and has the resources available to move forward. If 
confirmed, I expect to provide strong leadership in implementing EPACT 
2005.
    Question 21. National Electric Transmission Corridors.--In an 
effort to alleviate transmission congestion, strengthen the grid's 
reliability, and counter NIMBY opposition to siting power lines, the 
Energy Policy Act of 2005 directed DOE to study the Nation's congestion 
areas and then designate National Corridors. EPAct also provided FERC 
with backstop siting authority for any proposed transmission line that 
falls within a National Corridor.
    Recently, DOE issue two draft National Corridor designations in 
accordance with EPAct--one in the Mid-Atlantic Area and the other in 
the Southwest.
    It is my understanding that final National Corridor designations 
will not be made until the public comment period is completed. How is 
DOE handling public outreach efforts? How is DOE interacting with the 
states on these designations? When do you anticipate final 
designations?
    Answer. As I am not currently working inside the Department, I do 
not know whether or when DOE will issue final Corridor designations. I 
am aware, however, that the Department has had a period of public 
comment (which has recently closed), has conducted several public 
meetings to receive input, and has otherwise sought to solicit input on 
the proposed designations. DOE seems to have made a strong effort to 
solicit input from the public.
   Responses of Clarence H. Albright, Jr., to Questions from Senator 
                                Sanders
    Question 22. You served as the Washington Representative for 
Reliant Energy during the time of the California energy crisis of 2000. 
Although Enron was held up as the major bad actor in this artificial 
crisis, Reliant was similarly accused and subsequently paid California 
$13.8 million to settle the allegation of market manipulation. What 
role, if any, did you play in advising Reliant regarding the issues of 
market manipulation prior to and during the California 2000 energy 
crisis and what was your position, if any, on this issue during that 
time period?
    Answer. I was the head Reliant legislative lobbyist in Washington, 
D.C. I was not in a policy making position in the company, nor did I 
function in an operational capacity. I had no knowledge that some of 
Reliant's employees were engaged in unlawful practices until near or 
about the time that the public learned of it.
    Once there were accusations from various fronts that Reliant's 
practices in California were questionable, I approached the CEO and 
several other senior officials in the company and asked directly if 
they had ``done anything wrong.'' I was assured that they had not.
    I urged that when dealing with allegations of wrongdoing, it is 
always the best for government relations for the company to investigate 
accusations of wrongdoing thoroughly, find out the truth, correct 
anything that could be corrected and let the public know that the right 
thing is being done. Basically, I believe that transparency is a good 
thing. I urged that such a course be followed.
    Question 23. Weatherization, energy efficiency and renewable 
energies are key issues which for too long have not enjoyed the sort of 
emphasis at the Department as coal and nuclear have. This is true in 
spite of the evidence presented by the scientists with the 
Intergovernmental Panel on Climate Change in their several reports 
about the growing certainty that carbon emissions threaten our world. 
What do you intend, to do, if confirmed, to rectify this imbalance at 
the Department?
    Answer. I understand your strong interest in pursuing a balanced 
energy portfolio. I believe that to address our Nation's energy needs 
we must pursue a wide variety of new energy supplies. If confirmed I 
would look forward to discussing the funding priorities for various 
programs with other Administration officials, members of Congress, and 
the private sector. I would certainly appreciate having the input and 
assessments of energy issues from the Intergovernmental Panel on 
Climate Change as we work to promote a balanced energy portfolio.
   Responses of Clarence H. Albright, Jr., to Questions from Senator 
                                Cantwell
    Question 24. PNNL Use Permit.--In February of 2006, the Department 
of Energy announced it would compete the contract for management and 
operation of the Pacific Northwest National Laboratory (PNNL). Since 
that time there has been no visible progress on the RFP process, not 
even a draft proposal released for public comment. Of particular 
concern is the still unresolved matter of PNNL's ``Use Permit.'' I 
understand the Use Permit concept is unique among Department of Energy 
laboratories, yet it has been a part of the contractual arrangement 
between the Federal government and the operator of PNNL since its 
inception in 1964. The Use Permit is based on existing statutory 
authority of the Department and has created substantial synergism among 
the staff performing research for various sponsors, including the 
Federal government, state governments, industrial research 
organizations, and international organizations. The Use Permit creates 
innovation, economic development, jobs, and fosters energy technology 
research and development. In addition, there does not appear to be any 
legal or practical reason why the Department would preclude the 
continuation of the Use Permit as part of any RFP. Will you commit to 
supporting the inclusion of PNNL's Use Permit in the RFP process?
    Answer. I believe PNNL is within the responsibility of the Under 
Secretary for Science and so if confirmed as Under Secretary of Energy, 
I believe I would not be making any final decisions concerning the use 
permit at PNNL. Nonetheless, I understand your interest in the 
preservation of the Use Permit provision at PNNL. While I have not had 
the opportunity to study this issue in detail, if confirmed I would 
certainly be willing to listen to the views of those at the PNNL site, 
the contractor involved, and DOE's program management and procurement 
officials. If confirmed, and if I am involved in considering this 
issue, I would certainly keep in mind the strong views that you have 
expressed.
    Question 25. Electricity Grid.--I am concerned that our Nation's 
electricity grid is based on outmoded technology that makes it less 
reliable and requires greater generation resources than it should. I 
have been working with a broad group of stakeholders to develop 
comprehensive legislation that will streamline and create greater 
efficiencies to our electricity grid. What is your plan to support 
robust energy technology research and development at the Department of 
Energy?
    Answer. If confirmed to the position of Under Secretary, one of the 
offices I will oversee is the Office of Electricity Delivery and Energy 
Reliability. Working with this office we will aggressively pursue the 
President's plans for improving and upgrading the Nation's transmission 
system and I will work to see that we provide the resources necessary 
to support that effort. As you may know, President Bush has nominated a 
new Assistant Secretary for Electricity Delivery and Energy 
Reliability, which demonstrates his commitment to placing greater 
emphasis on modernizing and upgrading the electricity grid. If 
confirmed, I expect to play a major role in this effort.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                  State of Arizona,
                                    Office of the Governor,
                                        Phoenix, AZ, July 11, 2007.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, Washington, 
        DC.
    Dear Senator Bingaman: I am writing you to offer my support of the 
nomination of James L. Caswell for the position of the Director of the 
Bureau of Land Management.
    The State of Arizona has worked with Mr. Caswell over the past 
several years on forest health and wildfire issues. In his capacity as 
a member of the subcommittee of the Western Governors' Association, Mr. 
Caswell has provided great leadership on a number of contentious issues 
that are so important to our Western states.
    Mr. Caswell has a strong track record of being able to work across 
party lines and with diverse groups and organizations.
    The Bureau of Land Management faces many challenges and I believe 
Mr. Caswell will be a great asset as Director, and I ask for your 
prompt action to confirm him.
            Yours very truly,
                                          Janet Napolitano,
                                                          Governor.
                                 ______
                                 
                                     State of Idaho
                                   House of Representatives
                                        Ketchum, ID, June 10, 2007.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, Washington, 
        DC.
    Dear Senator Bingaman: I am delighted to support the appointment of 
James L. Caswell to the position of Director, United States Bureau of 
Land Management.
    I have known Mr. Caswell since 2000 when he was appointed to the 
position of Administrator, Office of Species Conservation, Boise--The 
position was housed in the office of the Governor to deal with natural 
resource issues in the state. Initially I believed that the work on 
species conservation could be performed in the Fish and Game 
Department, but I began to see that the issues transcended one state 
agency and an independent agency with political appointees might not be 
the way to get the job done.
    Mr. Caswell came to the position from the position of Forest 
Supervisor, Clearwater National Forest in northern Idaho. This was a 
contentious position that he left with the approval as well as regret 
from all stakeholders in the region.
    What I have learned to appreciate from Mr. Caswell is his fairness. 
When he presents an issue to legislators, he provides all sides, 
fairly. He recognizes the minefields that a situation can present to us 
in our districts, he identifies the options. He has the knack to lift 
us up, above our constituents, to realize what will be good state 
public policy. He doesn't threaten or cajole. He calmly accepts the 
response from the legislator and moves on. I remember visiting with him 
over a salmon issue in the National Recreation Area. He helped me 
understand where we could and could not go for the constituent. On road 
less issues, on Craig-Wyden problems for our communities, he has been 
there to help.
    I know that Jim is eminently qualified to assume this position. He 
is a good leader and is able to attract very good people to work for 
him. He will be a credit to our state and to our country should you 
appoint him to this position. I respectfully ask for your approval.
            Sincerely,
                                              Wendy Jaquet,
                                           House Democratic Leader.
                                 ______
                                 
                                        Idaho State Senate,
                                       Ketchum, ID June 15th, 2007.
Hon. Jeff Bingaman
Chairman, Energy and Natural Resources Committee, Washington DC.
    Dear Senator Bingaman: I am writing to call your attention to Mr. 
James Caswell of Emmett, Idaho. As you likely know, Mr. Caswell has 
been appointed by the President to fill the position of the Director of 
the Bureau of Land Management. It is my understanding that you will 
soon be responsible for the confirmation of that appointment, and I 
would like to take this opportunity to share a few comments on the 
character of Mr. Caswell.
    As the Idaho Senate Minority Leader and as a member of the Senate 
Resources and Environment Committee, I have worked numerous times over 
the years with Mr. Caswell on an array of issues through out the 
variety of positions he has held in the State of Idaho. Mr. Caswell has 
always performed his duties fairly and professionally.
    Most recently as the Administrator for the Office of Species 
Conservation, Mr. Caswell has done an exemplary job enforcing the 
Endangered Species Act here in Idaho. As you may imagine in an ultra 
conservative state, such as ours, it is not always easy to implement 
and enforce conservation policies or programs. Yet, Mr. Caswell has 
over twenty years of experience implementing regulations and enforcing 
them with the general public. With finesse, he finds resolutions and 
calms the passions of the public, without compromising the law, our 
resources or our heritage. Mr. Caswell has a genuine concern for 
conservation and an understanding of human nature. He is successful 
with maintaining a fragile balance between the two.
    Mr. Caswell has an impressive resume. It reflects over two decades 
of on-the-ground experience with land management and public 
Administration. He has a history of continual education, which is 
reflective of his desire to learn and seek new approaches to the tasks 
he encounters in his field. In his resume, you will also fund a 
considerable list of awards and accomplishments contributed to him.
    I would encourage you to schedule sometime to talk with Mr. 
Caswell. I think you will find as I have, an intelligent, fair and 
hard-working individual, one worthy of a Senate confirmation. If 
needed, I would be happy to provide further comment. My contact 
information is above. Thank you for your time.
            Sincerely,
                                             Clint Stennett
                                 ______
                                 
                                    State of Idaho,
                                  House of Representatives,
                                        Rogerson, ID, July 8, 2007.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, Washington, DC.
    Dear Chairman Bingaman: I am writing in support of Jim Caswell and 
his nomination to be the next Bureau of Land Management Director.
    I became acquainted with Jim when he was named administrator of the 
Office of Species Conservation for the State of Idaho. He was 
instrumental, in crafting the Slickspot Pepper Grass candidate 
conservation agreement. This agreement brought all the stakeholders, 
State and Federal agencies, military and affected BLM permittees 
together in a proactive approach to conserve the plant and make listing 
under the Endangered Species Act unneccessary. I have also witznessed 
his work on delisting wolves in Idaho, helping with the Sage Grouse 
working groups to hopefully make listing unnecessary, and work on the 
road less rule.
    As you can see from his resume, Jim has a life time of experience 
working with land management issues and natural resources and people on 
those lands.
    Jim is uniquely qualified because of his experience in working with 
the bureaucracy of the land management agencies, BLM and Forest 
Service. He has vast experience working with the Endangered Species Act 
and dealing with the Fish and Wildlife Service.
    I urge you to approve Jim Caswell for the next BLM director.
            Thank you,
                                             Bert Brackett,
                                                    Representative.
                                 ______
                                 
                                 State of Colorado,
                                        Executive Chambers,
                                        Denver, CO, April 17, 2007.
Hon. Dirk Kempthorne
Secretary, of the Interior, Department of the Interior, Washington, DC.
    Dear Secretary Kempthorne: On behalf of the State of Colorado I am 
formally requesting that the state review period for the draft Oil 
Shale and Tar Sands Program Programmatic Environmental Impact Statement 
(PEIS) be revised from May 15--29, 2007 to May 15--September 11, 2007.
    Your staff has indicated to us that this 2000 page document will be 
the cornerstone of your decisions for a Commercial Oil Shale Program in 
northwest Colorado. As a Cooperating Agency, with a fiduciary and 
stewardship responsibility to our citizens, the state needs a 
reasonable timeframe for meaningful input on the scope of your analysis 
and the development alternatives considered in the PEIS. Your Colorado 
staff has also indicated that the Bureau of Land Management does not 
want any surprises from Cooperating Agencies during the public comment 
period--further underscoring the importance of a thorough review by the 
Cooperating Agencies. It is unrealistic, unnecessary and simply wrong 
to limit Cooperating Agencies to 15 days of substantive review and 
comment for a program of this magnitude.
    Our analysis during this review period will help us to determine 
whether the document, when finalized, will provide adequate information 
on the technologies contemplated; the environmental impacts to surface 
and ground water, air quality and wildlife; the identification of lands 
suitable for this type of development given other resource development 
and economic development activities in northwest Colorado; the 
availability and related impacts to supply the power and water needs to 
sustain a commercial industry; and the timing of commercial development 
since we are years away from the first production from the current 
Research Development and Demonstration (RD&D) leases.
    It would be better to first identify deficiencies in the analysis 
prior to the public comment period, rather than face wholesale 
revisions to be embodied solely in the final PEIS. Addressing these 
issues adequately in the PEIS is critical to an informed recommendation 
by the state as part of the Governor's Consistency Review on the 
Commercial Oil Shale Program.
    I respectfully request that you revise the timeframe.
            Sincerely,
                                           Bill Ritter, Jr.
                                                          Governor.

                                 State of Colorado,
                                    Office of the Governor,
                                           Denver, CO, May 14 2007.
Hon. Dirk Kempthorne,
Secretary of the Interior, Department of the Interior, Washington, DC.
    Dear Secretary Kempthorne: I would like to take this opportunity to 
reiterate a request that Harris Sherman, Executive Director of the 
Colorado Department of Natural Resources made to Jim Hughes, Acting 
Director of the Bureau of Land Management, last week. Our urgent 
request is that you give us an extension of time to provide Colorado's 
comments on the Roan Plateau. As I am sure you are aware, the BLM has 
recently completed its analysis of the protests received on the Roan 
Plateau Resource Management Plan (RMP) and the Record of Decision (ROD) 
could be issued in the near future.
    Colorado has been an active participant in the development of the 
Roan RMP and it is imperative that my Administration be given the 
opportunity to weigh in on the proposal before the ROD is issued. As a 
recently elected governor, I believe that the citizens of Colorado 
expect me to evaluate and comment on the plan which will chart the 
future for one of Colorado's special places. I am aware of the 
extensive work that has brought the BLM to this place in the process. 
Nevertheless, it is imperative that these plans transcend election 
cycles and result in management proposals that achieve durability and 
broad public acceptance. Failure to grant this request for additional 
time will seriously undermine the credibility of the plan.
    I respectfully request an additional 120 days to evaluate and 
provide comments on the Roan RMP. Thank you for consideration of this 
request. I look forward to hearing from you.
            Sincerely,
                                           Bill Ritter, Jr.
                                                          Governor.

                                    

      

</pre></body></html>
